<html>
<title> - S. 1262, THE NATIVE CULTURE, LANGUAGE, AND ACCESS FOR SUCCESS IN SCHOOLS ACT</title>
<body><pre>[Senate Hearing 112-328]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-328
 
   S. 1262, THE NATIVE CULTURE, LANGUAGE, AND ACCESS FOR SUCCESS IN 
                       SCHOOLS ACT--NATIVE CLASS

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 30, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
68-388                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 30, 2011....................................     1
Statement of Senator Akaka.......................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Murkowski...................................    15
Statement of Senator Tester......................................     2

                               Witnesses

Bowers, Amy, Staff Attorney, Native American Rights Fund.........    28
    Prepared statement...........................................    29
Brave Eagle, Dana, Director, Oglala Sioux Tribal Education 
  Department, Pine Ridge Indian Reservation......................    35
    Prepared statement...........................................    37
Cromwell, Hon. Cedric, Chairman, Mashpee Wampanoag Tribe; Board 
  of Directors, United South and Eastern Tribes..................    18
    Prepared statement...........................................    20
Imotichey, Jessica, Senior Policy Analyst, Chickasaw Nation......    38
    Prepared statement...........................................    40
Mendoza, William, Acting Director, White House Initiative on 
  Tribal Colleges and Universities, U.S. Department of Education.     4
    Prepared statement...........................................     6
Moore, Keith, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................     9
    Prepared statement...........................................    11
Russell, Scott, Rocky Mountain Area Vice President, National 
  Congress of American Indians; Secretary, Crow Nation...........    24
    Prepared statement...........................................    26

                                Appendix

Calica, Charles R., Secretary-Treasurer/CEO, Confederated Tribes 
  of the Warm Springs Reservation of Oregon, prepared statement..    46
Kippen, Colin, Executive Director, National Indian Education 
  Association, prepared statement................................    45
Pigsley, Hon. Delores, Tribal Chairman, Conferated Tribes of 
  Siletz Indians, prepared statement.............................    52
Response to written questions submitted to Amy Bowers by:
    Hon. Daniel K. Akaka.........................................    54
    Hon. John Barrasso...........................................    56
Response to written questions submitted to William Mendoza by:
    Hon. Daniel K. Akaka.........................................    58
    Hon. John Barrasso...........................................    60
    Hon. John Cantwell...........................................    63
    Hon. Kent Conrad.............................................    65
Stewart, Leo, Interim Chairman, Board of Trustees, Conferated 
  Tribes of the Umatilla Indian Reservation, letter of support...    54


   S. 1262, THE NATIVE CULTURE, LANGUAGE, AND ACCESS FOR SUCCESS IN 
                       SCHOOLS ACT--NATIVE CLASS

                              ----------                              


                        THURSDAY, JUNE 30, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
628, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The Committee will come to order.
    Thank you very much for being patient. We are expecting a 
second vote but I thought I would come back and start this 
hearing.
    Aloha and welcome to the Committee's legislative hearing on 
the Native Culture, Language, and Access for Success in Schools 
Act. We call it the Native CLASS Act.
    As a former educator, this issue is very dear to my heart. 
The decisions we make today to improve the education system for 
our young Native people are decisions about how we envision the 
future of our communities. That vision of our future must be 
grounded in our language, tradition and culture. These three, 
language, tradition and culture, form our roots and to cut 
those roots is to harm the Native peoples.
    Education is what keeps our roots alive and it is the way 
that we honor the knowledge and wisdom of our ancestors. Native 
young people face steep challenges in attaining a quality 
education.
    Three major reports by the Federal Government on Native 
education since 1928 have demonstrated little, if any, 
improvement in the education people in the past 80 years. In 
the States with the highest Native populations, the graduation 
rates are below 50 percent and are the lowest of any other 
racial or ethnic group. This is unacceptable, especially 
because our Federal Government has a unique trust obligation to 
provide a quality education to its Native people.
    The Native CLASS bill presents a new comprehensive vision 
of Native education, one that is grounded in culture, language 
and local community control. The bill provides opportunities 
for tribes to be partners in their own education systems. It 
paves the way for innovative language and culture-based 
instruction programs. It also provides much stronger 
accountability of State and local agencies to Native 
communities for the administration of their children's 
education.
    The provisions of the Native CLASS Act are the result of 
consultation and input with a wide range of American Indian, 
Alaska Native and Native Hawaiian stakeholders. We will 
continue to work with those Native stakeholders to improve this 
bill to ensure that it meets the unique needs of all our Native 
students.
    We anticipate that we will have amendments to improve this 
bill as we move along in the process. We encourage you to 
continue to submit your ideas. In fact, Senator Inouye and I 
are working on an amendment to the bill that will address 
improvements in Native Hawaiian education.
    It is so timely and I am glad we have been working well 
together with my colleague, Senator Barrasso, the Vice 
Chairman, and we look forward to an opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    It is indeed a privilege to work with you and to learn from 
your leadership on this important Committee. I am so grateful 
for the hearing we are holding today and you starting this 
dialogue with this hearing on the extremely important subject 
of Indian education.
    This Committee has held several oversight hearings on 
education and education-related topics. These hearings confirm 
that the education and future of Indian children are among the 
highest priorities for tribal leaders, for the parents of the 
children, as well as for educators. We know that many Indian 
children are leaders in their schools and will be future 
leaders in their communities. Children who succeed and achieve 
despite many challenges and many disadvantages.
    These hearings have also shown that despite many gains in 
education over the years, Mr. Chairman, as you and I know and 
have discussed, there is still much work to be done. The 
dropout rates, low academic scores and teacher retention are 
some of the areas that need to be addressed. Parents, schools, 
Indian communities, Congress and the Administration need to 
work together to reach these children before they dropout, 
before they fail. We need innovative approaches that will 
prepare these children to be tomorrow's leaders.
    I look forward to hearing from our witnesses and how this 
legislation, Mr. Chairman, the bill before us, will begin that 
work.
    Thank you so much for your leadership.
    The Chairman. Thank you very much, Senator Barrasso.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I appreciate the 
opportunity to say a few things and thank you for holding this 
hearing.
    I want to recognize someone who is going to be on the 
second panel, a good friend of mine, a fellow by the name of 
Scott Russell who is here with the National Congress of 
American Indians.
    Scott is Secretary of Montana's Crow Tribe and an 
incredible leader. With his service to that Tribe and southern 
Montana, we thank you for being here. You understand how 
important education is to a prosperous future in Indian country 
and we look forward to hearing your perspective.
    This is a critical hearing, Mr. Chairman. Education is the 
key to improving life in Indian country. Education represents 
hope in a place where we need more hope.
    The purpose of this hearing is to talk about how we are 
doing, to communicate and to collaborate to make sure that 
Indian kids don't get left behind the next time we reauthorize 
this Nation's education laws. I think we can all agree that 
except for pointing out the achievement gap, NCLB hasn't worked 
all that well in Indian country and we can do better.
    Indian students will be successful when they get three 
things--good schools, good motivated teachers and families who 
support their students. My personal experience and past 
committee hearings have pointed out that they are lucky if they 
get one of those three, let alone all three.
    We have had testimony about a lot of barriers from 
crumbling schools that pose physical danger to lack of 
preventive and emergency safety procedures to excessive 
violence to overcrowded classrooms to chronic under funding, 
lack of teachers, poor attendance, hungry students, the list 
goes on and on.
    Of course the biggest problem is the vicious, I say the 
vicious, cycle of poverty that plagues Indian country. 
Education and economic development are the only things that are 
going to break that cycle. We need one to get the other. 
Without good education, economic development projects will not 
happen; they are simply not sustainable. We need a steady 
supply of Indian country's best and brightest people, young 
people, to run businesses that are successful.
    Government can't do it all, but we need to do our part. Our 
part is to provide good schools, do our best to recruit, train 
and retain good teachers, but the community also has a 
responsibility to provide good teachers and good families. In 
Montana, 98 percent of the Indian kids attend public schools, 
so my chief concern is to make sure that our public schools 
work for our Native American students.
    In Montana, we are lucky our Superintendent of Public 
Instruction happens to come from the Black Feet Tribe. Denise 
Juneau truly understands the challenges out there and she has a 
lot of great ideas and has done a lot of great work.
    She had three priorities she expressed to me and they are 
as follows: close relationship between the Tribes and the 
public schools; we need to make education a community, not just 
a government responsibility; and wrap around services in 
schools--counselors, social workers, mental health providers. 
Oftentimes these services are overlooked but they are critical. 
Lastly is parental involvement. Kids won't take education 
seriously until or unless their parents do. We need to provide 
incentives and motivation to get parents involved.
    In Montana, we have cases where we are doing pretty good. 
We have other cases where we can do a heck of a lot better. I 
look forward to hearing from you about the opportunities to 
provide success to our Native American youth because quite 
frankly, if we are going to break the cycle of poverty, it is 
critically important.
    I want to thank you all for being here and look forward to 
the first panel.
    With that, thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Tester from 
Montana.
    I welcome the witnesses. I appreciate that you have 
traveled to be here with us today and look forward to hearing 
your testimony on this very important matter.
    We have on our panel Mr. William Mendoza, Acting Director, 
White House Initiative on Tribal Colleges and Universities, 
U.S. Department of Education. Also we have Mr. Keith Moore, 
Director, Bureau of Indian Education, U.S. Department of the 
Interior.
    I ask that you limit your oral testimony to five minutes. 
Your full written testimony will be included in the record.
    Mr. Mendoza, please proceed with your statement.

  STATEMENT OF WILLIAM MENDOZA, ACTING DIRECTOR, WHITE HOUSE 
               INITIATIVE ON TRIBAL COLLEGES AND 
           UNIVERSITIES, U.S. DEPARTMENT OF EDUCATION

    Mr. Mendoza. [greeting in native language]. I greet you all 
as relatives and extend my hand to you with a good heart. My 
name is William Mendoza, the Acting Director of WHITCU.
    I am also a father and an educator so I am very proud to be 
serving in such a capacity. I was born and raised on the Pine 
Ridge and Rosebud Sioux Reservations and I have attended our 
BIE public schools and tribal universities. I will spare you 
the details because it is a humble story in learning the 
importance of education but I want to acknowledge the 
complexity of these issues because on the one hand, I wouldn't 
be here today without these institutions, but I also know that 
we have great concerns regarding our American Indian and Alaska 
Native students. This is important work and I am thankful and 
honored to be a part of us all convening here today.
    On behalf of Secretary Duncan, I would like to thank 
Chairman Akaka, Ranking Member Barrasso and the entire 
Committee for the opportunity to testify today.
    Chairman Akaka, I also want to thank you, Senator Inouye, 
Senator Johnson from my home State of South Dakota, for 
introducing the Native CLASS Act, also known as S. 1262. We are 
in the process of reviewing the bill and look forward to 
discussing it with you to achieve the shared goals for Indian 
students.
    This Administration has taken great strides in implementing 
a policy of Indian self determination and honoring the 
government-to-government relationship with tribal nations. 
President Obama has worked hard to reaffirm the Federal 
Government's commitment to ensuring that tribal nations are 
full partners in the Federal family.
    The Federal Government has an important role to play in 
improving the education of Indian students. Congress last 
reauthorized the ESEA through the No Child Left Behind Act in 
2002. Although flawed, NCLB deserves recognition for 
highlighting the achievement gap between poor and minority 
students and their middle class, white counterparts.
    American Indian students are not only performing at levels 
below their peers, they are also not graduating from high 
school. In States with large Native populations, the graduation 
rates of American Indian students falls behind all other racial 
and ethnic groups. Under President Obama and Secretary Duncan's 
leadership, the Department's focus on Indian country has 
increased dramatically.
    Secretary Duncan and senior officials have held 
unprecedented amounts of listening sessions and regional 
consultations with leaders across the country. In our meetings, 
we heard specific ideas from tribal officials about the needs 
of Indian country. Some common themes emerged including 
collaboration with States in how Indian students are educated. 
Many tribal leaders said the best way to promote Tribal-State 
collaboration would be to elevate and fund tribal education 
agencies.
    Number two was the need for increased coordination and 
collaboration between Tribes, States, and the Federal 
Government to address the needs of Indian students. Number 
three was preservation of Native languages, histories and 
cultures.
    We also heard several pressing concerns including the 
following: one, many schools located on reservations are in 
dilapidated condition and do not meet safety codes; two, 
teacher recruitment and retention is a tremendous challenge for 
reservation schools, highlighting the importance of grow your 
own teacher programs and ESEA reauthorization; three, Indian 
students face additional challenges such as violence, substance 
abuse and high unemployment rates in their communities, which 
hinder educational achievement.
    We look forward to working with this Committee and the 
House committee in a bipartisan manner to address these issues. 
Our five goals for ESEA reauthorization include: preparing 
college and career ready students by raising standards, 
improving assessments and helping States and districts provide 
a well rounded education; two, strengthen teacher and leader 
preparation and recruitment; three, ensuring the needs of 
diverse learners are met; four, raising the bar and rewarding 
excellence through incentives such as Race to the Top; and 
five, promoting innovative programs which support, recognize 
and reward local innovation.
    As ESEA reauthorization moves forward, we will continue our 
dialogue with tribal leaders and look forward to working, in a 
bipartisan way, with this Committee and the House committee to 
achieve our goals for Indian students.
    Thank you and I would be happy to respond to any questions 
you may have.
    [The prepared statement of Mr. Mendoza follows:]

  Prepared Statement of William Mendoza, Acting Director, White House 
  Initiative on Tribal Colleges and Universities, U.S. Department of 
                               Education
Framework: Increasing Partnerships with Tribes to Improve Student 
        Achievement
    My name is William Mendoza, and I am the Acting Director of the 
White House Initiative on Tribal Colleges and Universities at the U.S. 
Department of Education. On behalf of Secretary Duncan, I'd like to 
thank Chairman Akaka, Ranking Member Barrasso and the Full Committee 
for the opportunity to testify today regarding one of our Nation's most 
underserved student populations.
    Chairman Akaka, I also want to thank you, Senator Johnson of South 
Dakota, and Senator Inouye, for introducing the Native Culture, 
Language and Access for Success in Schools Act. We are in the process 
of reviewing the bill, and look forward to discussing it with you, to 
achieve our shared goals for Indian students.
    This Administration has taken great strides to implement a policy 
of Indian self-determination and strengthen and honor the government-
to-government relationships with Tribal Nations. In December 2010, 
President Obama invited tribal leaders, Cabinet Secretaries, senior 
officials and Members of Congress to attend the White House Tribal 
Nations Conference. Similar to the first White House Tribal Nations 
Conference, held in November 2009, President Obama reaffirmed the 
Federal Government's commitment to ensure that Tribal Nations are full 
partners in the Federal family.
Educational Performance of Indian Students
    It's important to note that only about eight percent of Indian 
students attend schools funded by the Department of the Interior's 
Bureau of Indian Education (BIE). The vast majority of Indian students, 
more than 90 percent, attend public schools operated by their local 
school districts. In these schools, there are few venues for 
collaboration between Tribes and States, even in the case of school 
district-operated public schools located on Tribal lands.
    The Federal Government has an important role to play in improving 
the education of Indian students. Congress last reauthorized the 
Elementary and Secondary Education Act of 1965 (ESEA) through the No 
Child Left Behind Act (NCLB), in 2002. Although flawed, NCLB deserves 
credit for highlighting the achievement gap between poor and minority 
students and their middle-class, white counterparts. It has provided us 
with statistically reliable evidence that Indian students perform at 
levels far below their peers on academic assessments in grades 3-8 and 
high school.
    In addition, the National Assessment of Educational Progress 
(NAEP), the largest nationally representative and continuing assessment 
of math and reading, includes statistically reliable data on American 
Indian students' progress. Using data from the NAEP, the Department's 
National Center for Education Statistics produced The National Indian 
Education Study 2009 \1\, finding that American Indian/Alaska Native 
student scores in both reading and mathematics at both fourth- and 
eighth-grade levels have not improved since the study was first 
conducted in 2005. Specifically, in the 2009 assessment in reading, 
fourth-grade American Indian students lagged behind the general 
population by 18 points and eighth-grade students by 13 points. As for 
math, American Indian fourth-grade students scored 15 points lower than 
the general population and 18 points lower by eighth-grade.
---------------------------------------------------------------------------
    \1\ http://nces/ed.gov/nationsreportcard/nies
---------------------------------------------------------------------------
    American Indian students attending BIE-funded schools fared even 
worse than the general American Indian student population. Fourth-grade 
BIE students scored 25 points lower in reading than the general 
population and 23 points lower in eighth-grade. In math, fourth- grade 
BIE students score 20 points lower than the general population and 
eighth-grade students lagged behind the general population by 19 
points.
    American Indian students are not only performing at levels below 
their peers, they are also not graduating from high school. Estimates 
from the U.S. Department of Education show that more than one third of 
American Indian students from the Pacific and Northwest regions of the 
U.S. fail to graduate high school on time. In States such as Alaska, 
Arizona, California, Idaho, Montana, New Mexico, North Dakota, 
Oklahoma, Oregon, South Dakota, and Washington, American Indian 
students' 62.5 percent graduation rate was behind all other racial/
ethnic groups, including whites (79.1 percent), Asians (91.7 percent), 
African Americans (60.9 percent) and Hispanics (62.8 percent).
    These statistics make one thing clear--in the area of education, we 
must do more to help Indian students.
What the Department Heard on Its Regional Consultations
    During this Administration, the Department has engaged Indian 
Country in a meaningful way. I am pleased to report that, under 
President Obama and Secretary Duncan's leadership, the Department's 
focus on Indian Country has increased dramatically. In 2009, Secretary 
Duncan and senior staff held several listening sessions at Tribal 
schools in Montana, New Mexico and North Dakota. On January 11, 2010, 
Secretary Duncan, along with other senior officials, participated in a 
meeting with Interior Secretary Ken Salazar, Senior Policy Advisor for 
Native American Affairs at the Domestic Policy Council, Kimberly 
Teehee, and Indian education experts regarding ways to improve 
education for Indian students. In March 2010, Secretary Duncan held a 
teleconference with Tribal leaders from across the country, 
specifically to get their ideas and input on reauthorization of the 
ESEA.
    Furthermore, senior Department staff, including Under Secretary 
Martha Kanter, General Counsel Charlie Rose and Assistant Secretary 
Thelma Melendez, held several regional consultations with Tribal 
leaders across the country. Consultations were held on the following 
dates and locations: April 16, 2010 at the Cook Inlet Tribal Council in 
Anchorage, Alaska; April 19, 2010, in Shawnee, Oklahoma; April 28 2010, 
on the Pine Ridge Reservation in South Dakota; on May 3, 2010, Santa 
Clara, New Mexico; on June 30, 2010 at the Navajo Reservation in Window 
Rock, Arizona; July 15, 2010 in Puyallup, Washington. In 2011, the 
Department held listening sessions in cities where there are a large 
number of Indian students, such as Denver, Los Angeles, and Green Bay.
    I am also pleased to report that the Department of Education and 
the Department of the Interior have continued to collaborate since 
Secretary Duncan and Secretary Salazar had their first meeting 
regarding Indian education on January 11, 2010. Since then, the two 
Departments have worked to combine and coordinate resources to maximize 
the benefits for Indian education. This is how we can improve student 
achievement for American Indian students--by breaking down the silos 
that stifle progress.
    All of these efforts are part of the Department's commitment to 
maintaining our engagement with Indian Country.
    During our meetings with Tribal leaders on their lands, we heard 
specific ideas from Tribal officials about what works for Indian 
Country. Several common themes emerged during these meetings, including 
that Tribes:

  <bullet> Want to collaborate with States about how Indian students 
        are educated. Many Tribal leaders testified that the best way 
        to promote Tribal-State collaboration would be to elevate and 
        fund Tribal Education Agencies (TEAs).

  <bullet> Want increased coordination and collaboration between 
        Tribes, States, and the Federal Government--to fully address 
        the needs of Indian students. In particular, we heard about the 
        importance of close collaboration between the Department of 
        Education and the Department of the Interior--to which we are 
        fully committed.

  <bullet> Want to preserve their Native languages, histories and 
        cultures.

  <bullet> Believe that language immersion programs are the best way to 
        increase fluency in Native languages and that we should 
        increase support for these programs.

  <bullet> Generally lack the capacity to compete with States or school 
        districts for competitive Federal grants and funding.

    We also heard several pressing concerns, including that:

  <bullet> Due to high mobility, small numbers, and the fragmentation 
        of the education system for Indian students among school 
        district-operated, BIE-operated, and Tribal schools, there is a 
        lack of accountability for Indian education in the U.S.

  <bullet> Many schools located on reservations are in dilapidated 
        condition and do not meet safety codes.

  <bullet> Due to violence, alcohol and drug abuse, and high 
        unemployment rates on reservations, Indian students face 
        additional educational challenges, which ultimately hinder 
        their achievement.

  <bullet> Teacher recruitment and retention is a tremendous challenge 
        for reservation schools. Teacher and staff morale continues to 
        be extraordinarily low, which is why Tribal leaders recommend 
        that ESEA reauthorization should increase support for ``grow 
        your own'' teacher programs that train Tribal citizens to teach 
        in their own schools.

    Finally, at every consultation, Tribal leaders emphasized the 
importance of follow-up. One Tribal leader even said ``consultation'' 
had become a ``bad word'' in Indian Country because to ``consult'' only 
meant to ``confer,'' and did not require true collaboration or 
partnership. Several Tribal members stated that the current state of 
Indian education was, in many ways, the same as it was in the Meriam 
Report of 1928, the 1969 Kennedy report on Indian education, and the 
1991 ``Indian Nations at Risk'' report. The facts have been clear for 
generations--the time for reform is now.
    Through regular consultation, maintaining a meaningful partnership 
between the Department and Tribal leaders, and following through on 
policy recommendations, we can help improve American Indian student 
achievement.
Goals for ESEA Reauthorization
    We look forward to working with this Committee as well as the 
Health, Education, Labor and Pensions Committee, in a bipartisan way, 
to address these issues in ESEA reauthorization. We have five broad 
goals for this reauthorization:

        (1) preparing college and career-ready students, through 
        raising standards, improving assessments, and helping States 
        and districts provide a complete, well-rounded education;

        (2) great teachers and leaders in every school, through 
        improving teacher and leader effectiveness, ensuring that our 
        best teachers and leaders are in the schools where they are 
        most needed, including schools that serve Indian students, and 
        strengthening teacher and leader preparation and recruitment;

        (3) equity and opportunity for all students, through rigorous 
        and fair accountability at all levels, meeting the needs of 
        diverse learners, and greater resource equity;

        (4) raising the bar and rewarding excellence, through 
        incentives such as Race to the Top, supporting effective public 
        school choice, and promoting a culture of college readiness and 
        success; and

        (5) promoting innovation and continuous improvement, through 
        programs such as the Investing in Innovation Fund (which 
        supports, recognizes, and rewards local innovations) and 
        supporting student success by providing comprehensive services.

    These 5 goals are critically important to improving education for 
all students, and especially for Indian students. Our reauthorization 
proposal also addresses the needs of schools that serve Indian 
students. We know that Federal funding is crucial for these schools, 
especially since they are generally small and remote. Our proposal 
would continue foundational formula funding in Title I and Title II-A, 
along with formula funding in the Rural Education, Indian Education, 
and English Learner Education programs, among others.
    For most schools serving Indian students, we want to promote Tribal 
sovereignty by allowing these schools to implement locally designed 
strategies, such as culturally based education and Native language 
instruction, to improve student achievement. We want to give grantees 
more flexibility under the Indian Education Program to carry out Native 
language restoration and immersion programs, and we want to make it 
easier for Tribes to apply and successfully compete for grants under 
this program when districts choose not to.
    But we also know that many schools with high percentages of Indian 
students are among the lowest-performing. For example, a majority of 
Montana's schools in ``restructuring'' status under ESEA are Indian 
schools, and many BIE schools are in restructuring status, having 
failed to make adequate yearly progress for five or more consecutive 
years.
    Our reauthorization proposal and fiscal year 2012 budget proposal 
focus significant attention and support on persistently low-performing 
schools, with $600 million in the School Turnaround Grants program to 
support the implementation of one of four school turnaround models in 
these schools--with the choice of which model left to the school 
district. The BIE would receive its share of these funds to turn around 
its lowest-performing schools.
    Our proposal also addresses teacher and leader recruitment and 
retention, especially for schools, like those in Indian communities, 
where they are needed most. The Administration's budget proposal 
includes $250 million for programs that create or expand high-quality 
pathways into teaching, along with programs that recruit, prepare, and 
retain effective teachers, principals, and other school leaders. These 
programs will be focused on preparing teachers and leaders to work in 
high-need areas.
    We believe that we can best improve student achievement by 
involving those who best understand the students' needs. Thus, in order 
to further the Administration's policy of self-determination for 
Tribes, and to further Tribal-State collaboration, the Department wants 
to strengthen Tribal education agencies (TEAs) through a TEA Pilot 
program that would create opportunities for Tribes to partner with 
States and local educational agencies. TEAs are executive branch 
agencies of sovereign Tribal governments that are responsible for 
education-related matters (TEAs are not schools, and generally don't 
deliver educational services directly to students.) Several Tribal 
officials have testified that strengthening TEAs may provide a 
mechanism for the Federal Government, TEAs, and State Education 
Agencies to combine and coordinate Federal, Tribal, and State 
resources, and develop partnerships that would promote Tribal 
sovereignty, increase capacity, and improve accountability in schools 
with high percentages of Indian students. Part of strengthening TEAs 
must include the provision of targeted technical assistance, as well as 
providing TEAs with data about Indian students--as we heard during our 
consultations, there currently is a lack of such data.
Conclusion
    As ESEA reauthorization moves forward, we will continue our 
dialogue with Tribal leaders and look forward to working in a 
bipartisan way with this Committee to achieve our goals for all Indian 
students. Thank you, and I would be happy to respond to any questions 
that you may have.

    The Chairman. Thank you very much, Mr. Mendoza.
    Mr. Moore, please proceed with your statement.

STATEMENT OF KEITH MOORE, DIRECTOR, BUREAU OF INDIAN EDUCATION, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Moore. Thank you, Mr. Chairman.
    Good afternoon, Chairman Akaka, Vice Chairman Barrasso, 
Senator Murkowski and Senator Tester.
    My name is Keith Moore. I am a Rosebud Sioux tribal member 
from South Dakota. I am the Director of the Bureau of Indian 
Education.
    I want to thank you for the opportunity to provide the 
Department of Interior's views on the Native Culture, Language 
and Access for Success in Schools Act.
    The Administration is committed to providing high quality 
educational opportunities for students who are educated in BIE-
funded schools throughout the country. The BIE is only one of 
two agencies operating a federal school system. The other 
entity is the Department of Defense.
    The BIE funds 183 facilities on 64 reservations in 23 
States consisting of 123 grant schools, 3 contract schools 
controlled by Tribes and 57 schools directly operated by the 
BIE. In addition, the BIE operates two post secondary 
institutions, Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute, with student 
populations for the fall this past year of 4,200 students in 
those two universities. The BIE also provides funds for 26 
tribal colleges and universities and two tribal technical 
colleges.
    Federal funding for the education of American Indian 
students comes from two entities, the U.S. Department of 
Education and the Department of Interior. In 2006, the 
Assistant Secretary of Indian Affairs established the BIE, 
formerly known as the Office of Indian Education Programs. The 
BIE was renamed and reorganized on August 29, 2006 to reflect 
its importance in the organizational structure of the Office of 
the Assistant Secretary, Indian Affairs.
    Over the years, there has been a transformation in how 
education is delivered on tribal lands throughout the country. 
From the Snyder Act of 1921 to the current No Child Left Behind 
Act of 2001. When delivering education, the BIE takes into 
consideration the whole person, taking into account the 
spiritual, mental, physical and cultural aspects of the 
individual within his or her family, and the tribal or village 
context.
    The BIE school system employs approximately 4,224 teachers, 
administrators and support personnel in 57 BIE operated 
schools, while many thousands more work in 126 tribal grant and 
contract school systems.
    The Bureau of Indian Education faces a complicated system 
of accountability. The BIE uses 23 different definitions of AYP 
crafted for each State's public schools and aligned to each 
State's academic standards, not specifically to BIE schools. As 
a result, there is not a consistent Bureau-wide measure of 
academic progress.
    BIE's current initiatives address this issue of 
accountability system fragmentation by developing a single 
accountability system that emphasizes common standards and a 
single assessment to measure them. BIE's proposed system 
concept mirrors the Department of Education's Blueprint for 
Reform, which emphasizes measurement of and support for growth 
in student achievement, reduced time and testing through the 
use of sophisticated assessments, and increased transparency 
through the improved use of data to guide school improvement.
    Currently, the BIE has to maintain multiple MOUs where 
States or schools are located. Each State has cut scores that 
bring conflict to BIE schools because of differing AYP, 
adequate yearly progress standards. Schools in State A can make 
AYP while schools in State B cannot make AYP, but schools in 
State B may be outperforming schools located in State A. This 
is due to low cut scores, easier standards and possibly easier 
assessments in State A.
    A single accountability system alone is not sufficient to 
address the capacity needs of the BIE. Many schools are not 
merely rural but geographically isolated from population 
centers and, as all of us know, are in some of the most 
impoverished communities across this country. Consequently, 
identifying, hiring and retaining high quality teachers and 
administrators are common barriers to improving instruction in 
rural BIE schools.
    To help address this need, the BIE is partnering with 
organizations across the country to recruit teachers and 
administrators, it has been a priority for the BIE over the 
last year and a half and will continue to be as we move 
forward.
    Some of our other continuing initiatives include Safe and 
Secure Schools, High School Excellence, Strengthening and 
Sustaining the Post Secondary Program, Family and Child 
Education, the McKinney-Vento Homeless Assistance in Education, 
the Statewide System of Support and engaging in partnerships 
with other federal programs as well as private entities.
    The BIE has partnered with Clemson University to 
participate in a dropout reduction program through the National 
Center for Drop-out Prevention and is starting work with the 
Center for Disease Control and Prevention on a Healthy Schools 
initiative.
    Additionally, consistent with President Obama's initiative 
to identify areas for improvements in government efficiency, 
the BIE has commissioned a BIE-wide evaluation of processes and 
regulations limited to a review of BIE's organization, health, 
achievement, leadership and faculty.
    In the meantime, the BIE has sought to bring distinct and 
typically separate officials, offices and stakeholders to the 
table to facilitate better communication. The results are 
already being seen as the BIE's coordination and delivery of 
services to schools has been greatly enhanced.
    This last year and a half has seen a marked increase in 
collaboration with the Department of Education. As we move 
forward, we look forward to continued collaboration and strong 
partnership in order to improve Indian education.
    S. 1262 was introduced a week ago today. The BIE is still 
in the process of reviewing the bill and cannot make specific 
comments at this time. The BIE is committed to working with the 
committee on S. 1262 in addressing the educational needs of 
American Indians and Alaska Native students, especially in BIE 
schools.
    In conclusion, education in the United States is primarily 
a State and local responsibility. However, tribal communities 
have not been afforded appropriate control over education in 
their own communities in the past. Outside interests have 
historically imposed their will on tribal communities and 
defined the futures of Indian communities through their 
children.
    Reauthorization of ESEA represents a unique opportunity for 
all of us to ensure that the Act works for American Indian and 
Alaska Native communities. The reauthorized ESEA can support 
the self-determination of Indian Tribes and create an 
educational system that values tribal cultures and languages 
and also ensures accountability for student performance and 
achievement.
    Thank you for providing the BIE this opportunity to 
testify. We are committed to working with this committee, with 
tribes, with the Department of Education and other partners as 
the reauthorization of ESEA moves forward through Congress.
    I am happy to answer any questions the Committee may have.
    Thanks again.
    [The prepared statement of Mr. Moore follows:]

     Prepared Statement of Keith Moore, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Mr. Chairman, Mr. Vice Chairman, and members of the 
Committee. My name is Keith Moore and I am the Director of the Bureau 
of Indian Education (BIE). Thank you for the opportunity to provide the 
Department of the Interior's views on the Native Culture, Language and 
Access for Success in Schools Act. The Administration is committed to 
providing high-quality educational opportunities for approximately 
42,000 students who are educated in BIE-funded elementary and secondary 
schools throughout the country.
Background
    The BIE is only one of two agencies operating a Federal school 
system. The other entity is the Department of Defense. The BIE funds 
183 facilities on 64 reservations in 23 States, consisting of 123 grant 
schools and 3 contract schools controlled by tribes, and 57 schools 
directly operated by the BIE. In addition, the BIE operates two 
postsecondary institutions, Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute, with student populations for 
the fall through the summer semesters for 2009/2010 of 2,405 and 1,818, 
respectively. The BIE also provides funds for 26 Tribal Colleges and 
Universities (TCUs) and two tribal technical colleges.
    Federal funding for the education of American Indian students comes 
from both the Department of the Interior and the Department of 
Education. The 183 elementary and secondary schools funded by BIE 
educate approximately 42,000 students, or approximately 7 percent of 
the total American Indian and Alaska Native student population in the 
United States. The great majority (over 90 percent) of American Indian 
and Alaska Native children are educated in non-BIE public schools under 
the supervision of their local education agencies.
    In 2006, the Assistant Secretary-Indian Affairs established the 
BIE. Formerly known as the Office of Indian Education Programs, the BIE 
was renamed and reorganized on August 29, 2006, to reflect its 
importance in the organizational structure of the Office of the 
Assistant Secretary-Indian Affairs. The BIE is headed by a Director, 
who is responsible for the line direction and management of education 
functions, including the formulation of policies and procedures, the 
supervision of program activities and the expenditure of funds 
appropriated for education functions.
    There have been several major legislative actions that affected the 
education of American Indians since the Snyder Act of 1921. First, the 
Indian Reorganization Act of 1934 supported the teaching of Indian 
history and culture in Bureau-funded schools (prior to 1934 it had been 
Federal policy to acculturate and assimilate Indian people through a 
boarding school system). Second, the Indian Self-Determination and 
Education Assistance Act of 1975 (P.L. 93-638) provided authority for 
federally recognized tribes to contract with the Secretary of the 
Interior to operate Bureau-funded schools. The Education Amendments Act 
of 1978 (P.L. 95-561) and further technical amendments (P.L. 98-511, 
99-99, and 100-297) provided funds directly to tribally-operated 
schools, empowered Indian school boards, encouraged local hiring of 
teachers and staff, and established a direct line of authority between 
the Education Director and the Assistant Secretary for Indian Affairs. 
The No Child Left Behind Act of 2001 (NCLB) (P.L. 107-110) brought 
additional requirements to the schools by establishing accountability 
metrics and goals for improving their students' academic performance.
    As stated in 25 C.F.R.  32.3, BIE's mission is to provide quality 
education opportunities from early childhood through life in accordance 
with a tribe's needs for cultural and economic well-being, in keeping 
with the wide diversity of Indian tribes and Alaska Native villages as 
distinct cultural and governmental entities. Further, the BIE takes 
into consideration the whole person by taking into account the 
spiritual, mental, physical, and cultural aspects of the individual 
within his or her family and tribal or village context. The BIE school 
system employs approximately 4,224 teachers, administrators, and 
support personnel in the 57 BIE-operated schools, while many thousands 
more work in the 126 tribal grant and contract school systems.
Bureau of Indian Education Student Achievement Initiatives
    The Bureau of Indian Education (BIE) faces a complicated system of 
accountability. The negotiated rulemaking process resulted in a joint 
decision with the Department of Education that the BIE would implement 
NCLB using State definitions of Adequate Yearly Progress (AYP) for BIE-
funded schools based on the State in which the school is located. The 
BIE uses 23 different definitions of AYP that are crafted for each 
State's public schools and aligned to each State's academic standards, 
not specifically to BIE schools. As a result, there is no consistent, 
Bureau-wide measure of academic progress.
    BIE's current initiatives address this issue of accountability 
system fragmentation by developing a single accountability system that 
emphasizes common standards and a single assessment to measure them. 
BIE's proposed system concept mirrors the Department of Education's 
Blueprint for Reform, which emphasizes, measurement of and support for 
growth in student achievement, reduced time spent in testing through 
the use of sophisticated assessments, and increased transparency 
through the improved use of data to guide school improvement. Such a 
system of accountability would enable better and faster responses to 
weaknesses in school performance to improve student achievement. For 
example, BIE has to enter and maintain 23 separate MOUs with each state 
where schools are located. Each state has cut scores that bring 
conflict to BIE schools because of differing AYP standards. Schools in 
State A can make AYP and schools in State B may not make AYP, but may 
be out performing schools located in State A. This maybe is due to low 
cut scores and easier standards and assessments in State A.
Bureau of Indian Education Initiatives
    A unitary accountability system alone is not sufficient to address 
the capacity needs of the BIE. A unitary accountability system must be 
enhanced through other focused efforts to improve staffing, and to 
address other recognized issues facing the BIE. Many BIE schools are 
not merely rural, but geographically isolated from population centers. 
Consequently, identifying, hiring, and retaining high quality teachers 
are common barriers to improving instruction at rural BIE schools.
    To help address this need, the BIE has partnered with organizations 
such as Teach for America to recruit teachers to work at rural schools 
and this has been a priority for the BIE over the last year and a half. 
Professional capacity, however, is not the only capacity that requires 
development in the BIE schools.
    Some of our continuing initiatives include Safe and Secure Schools, 
High School Excellence, Strengthening and Sustaining the Postsecondary 
Program, Family And Child Education, McKinney-Vento Homeless Assistance 
in Education, the Statewide System of Support, and engaging in 
partnerships with other federal programs as well as private entities. 
The BIE has partnered with Clemson University to participate in a drop-
out reduction program through the National Center for Drop-Out 
Prevention and is starting work with the Center for Disease Control and 
Prevention on the Healthy Schools initiative.
    Additionally, consistent with President Obama's initiative to 
identify areas for improvements in government efficiency, the BIE has 
commissioned a BIE-wide evaluation of processes and regulations limited 
to a review of BIE's organization, health, achievement, leadership and 
faculty. In the meantime, the BIE has sought to bring distinct and 
typically separate officials, offices and stakeholders to the table to 
facilitate better communication. The results are already being seen, as 
the BIE's coordination in the delivery of services to schools has been 
greatly enhanced.
    The last year and a half has seen a marked increase in the 
collaboration between the Department of Education and the Department of 
the Interior. With the BIE's increased responsiveness to the advice 
offered by the Department of Education on program implementation 
issues, and the BIE's increased capability and improved compliance with 
the Department of Education's reporting requirements, the BIE has taken 
considerable strides to increase its accountability for program 
implementation. This collaboration between Interior and Education is 
expected to continue into the foreseeable future as relationships 
forged between the departments continue to strengthen.
    S. 1262 was introduced a week ago today. The BIE is still in the 
process of reviewing the bill and cannot make specific comments at this 
time. The BIE is committed to working with the Committee on S. 1262 in 
addressing the educational needs of American Indian and Alaska Native 
students, especially in BIE schools.
Conclusion
    Education in the United States is primarily a State and local 
responsibility. However, tribal communities have not been afforded 
appropriate control over education in their own communities in the 
past. Outside interests have historically imposed their will on tribal 
communities and defined the futures of Indian communities through their 
children.
    Reauthorization of the ESEA represents a unique opportunity to 
ensure that the Act works for American Indian and Alaska Native 
communities. The reauthorized ESEA can support the self-determination 
of Indian tribes and create an educational system that values tribal 
cultures and languages.
    Thank you for providing the BIE this opportunity to testify. We are 
committed to working with this Committee, with the tribes and with the 
Department of Education as the reauthorization of ESEA moves forward 
through Congress.
    I am happy to answer any questions the Committee may have.

    The Chairman. Thank you very much for your statement, Mr. 
Moore.
    I would like to defer my questions and ask Senator Tester 
for his and Senator Murkowski for hers.
    Mr. Tester. Thank you, Mr. Chairman. Thank you for the 
privilege.
    Mr. Mendoza, you talked about language, history and culture 
being important to be a part of the curriculum for Native 
American students. Can you give me any sort of idea on how many 
schools actually incorporate language, history and culture?
    Mr. Mendoza. Unfortunately, I don't have that information 
available right now, but we do know that throughout the 
country, and Indian country especially, there is a concerted 
effort through Department of Education funding, namely Title 
VII, where we have both professional development and 
demonstration grants that support efforts in this area, both in 
terms of implementing culturally responsive pedagogy and also 
from our language areas, we are focusing on looking at the 
effectiveness of those programs as well in the schools. I can 
certainly provide you with more detailed information.
    Mr. Tester. I am sure it is a pretty small amount. I think 
the language, culture and history is pretty important. Are you 
able to monitor your grants you are putting out for that 
purpose? That is where I think I heard you say there were 
grants available for this purpose to see if it is making any 
difference as far as testing goes and overall success.
    Mr. Mendoza. As you know, the research is limited in this 
area. One of the direct results of the consultations was 
looking at how the Department of Education utilizes its ability 
to conduct research on a national level pertaining to this. 
This is an area that the Department of Education is looking at 
to examine.
    There are areas where we evaluate our programs of course. 
We are looking at how we can contribute to the body of best 
practices.
    Mr. Tester. The other thing you mentioned, Mr. Mendoza, is 
teacher recruitment and that retention is critically important. 
I agree. You talked about home grown teachers. I couldn't agree 
with you more. Are there any efforts in the Department to 
encourage this and how are you doing it if there is?
    Mr. Mendoza. Of course it is a key area for us. Again, I 
mentioned within Title VII we have professional development 
that goes towards institutions conducting this kind of work. I 
think of Montana and the rich tribal college and university 
system that is thriving there, this is an example of that and 
partnerships with schools like Montana State and the University 
of Montana are key to that and also tapping into the community 
colleges to make sure our teachers are coming from those 
communities and understand those communities best but are 
addressing the level of teaching we want to generate the 
outcomes.
    Mr. Tester. Let me ask more specifically. Poverty reigns 
pretty high, on Montana reservations anyway, and if you have a 
student who wants to go to school and become a teacher, and 
they have the skills, the desire, the drive, but don't have the 
money. Are there any programs out there that might help and 
encourage them to go into education?
    Mr. Mendoza. If this is an Indian student, yes, there are 
monies available. I can provide you with that program 
information.
    Mr. Tester. Hopefully it is obtainable without too much red 
tape but enough to make sure that we are spending it wisely.
    Mr. Moore, you talked about working on the ESEA and making 
sure that it works for Indian schools when the final product 
comes out. Are you working with the Department of Education and 
are you giving them input on ESEA from a Native American 
student standpoint? What are some of the things you are 
advocating for in ESEA, if you are doing that?
    Mr. Moore. We have and continue to work closely with the 
U.S. Department of Education on ESEA and Indian education as we 
move forward. I don't want to sound standoffish, Senator, but 
the specifics are obviously being discussed and vetted and 
trying to become clear in terms of what it is that we would 
like to see from the BIE standpoint in terms of what would 
specifically be in ESEA.
    We think we are close to having some of our stances in 
place, but I would like to be cautious in terms of talking 
specifics at this point.
    Mr. Tester. It is no problem.
    The Secretary of Education was in northern Cheyenne about a 
year and a half or two years ago and one of the things a 
student said to him while he was there, and you don't need to 
respond, this is more of a comment, was that people need to 
demand more of us. If we are going to achieve excellence, we 
need more demanded of us.
    I do not want our Native American kids to get a second 
class education. It is a worldwide economy that we live in. I 
want to build the economy in each one of the States and Indian 
country but by the same token, when they come out of school, 
they have to be able to compete. I would just ask you to keep 
that in mind. We don't want second class education, we want the 
very best. If we are going to break the cycle of poverty, that 
is what has to happen.
    Thank you both for being here.
    The Chairman. Thank you very much, Senator Tester.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Thank you for 
this hearing today and for getting out front on the issue of 
education and how we provide educational opportunities for 
American Indians, Alaska Natives and Native Hawaiians.
    I also serve on the Health Committee, so I am going to be 
looking forward to working with you all as we try to deal with 
some of the challenges. I don't like the statistics that are 
out there. I am sure that you don't and many of the people in 
this room.
    Mr. Mendoza, you mentioned that the National Indian 
Education Study of 2009 and the findings based on the NAEP data 
that American Indian students lag behind their non-Indian peers 
on these NAEP standards. It is my understanding, and I would 
like confirmation of this if it is not correct, but it is my 
understanding that the study was unable to provide reliable 
statistics on Alaska Native students because of the small 
sample size. Is that, in fact, correct?
    Mr. Mendoza. I can certainly provide you with more detailed 
information. I don't have full understanding of the research 
model that goes into the National Indian Education Study but I 
do know that the sample size is taking into consideration both 
high and low density population schools. It is broken up by 
region.
    This augmented sample they used for the National Indian 
Education has naturally occurring data pools that are derived 
from NCLB directly. In some cases, and I don't know if this is 
particular to Alaskans--I apologize--but we may be able to look 
at Alaska by itself and see how that relates to this bigger 
pool of fourth and eighth grade data which is about 9,000 
fourth graders and 8,000 eighth graders respectively.
    Senator Murkowski. I would appreciate it if you could look 
into it because if we are going to be relying on data, we need 
to know that the data that has been collected is sufficient 
upon which to base some decision. If, in fact, the sample size 
was not sufficient, hopefully we can remedy that through an 
opportunity to look at a larger sample of our Alaska Native 
students.
    I had a rural constituent, a superintendent of a rural 
school district in northwest Alaska, who was being critical of 
the NAEP data. He says it doesn't provide him with the reliable 
information because, in his opinion, there was cultural bias 
that was inherent in that test. He conveyed to me a story, a 
situation where the students were asked to circle pictures of 
food. One of the pictures included in the grouping was a 
picture of a whale. For Alaska Native students and many parts 
of the State, yes, whale is not only a food, it is a staple of 
their diet. When it comes back corrected, the whale is not a 
food according to those people who are sitting wherever they 
are correcting the tests in the lower 48 where whale is not 
considered a food. He pointed that out as a clear example of 
where you may see cultural bias within the testing itself.
    I guess the question I would ask you is whether you also 
believe that there is some inherent cultural bias in the 
testing that could lead to inaccuracies in these test results. 
We look at the results, we see there is a lag. Is it possible 
that there may be some issues within the testing itself?
    Mr. Mendoza. I certainly appreciate your concern. I think 
you point out very well the difficulties in meeting the diverse 
needs of our learners, especially from the tribal perspective, 
as we look across the complexities of our 565 tribal nations. 
In terms of the assessment, I can't speak directly to that 
specific test, but it is always a challenge just as an educator 
myself looking at if the assessments are really measuring what 
you are planning to do.
    I think that would be a question to direct to our National 
Center for Education Statistics. I would certainly have them 
follow up on that as to what that means.
    Senator Murkowski. I would agree we can certainly do that 
but I think it is important for those within the Department of 
Education to be looking to see if perhaps we are not getting 
fully accurate data because you have cultural issues that 
present themselves, a child reading a simple story problem that 
has a story about a sidewalk and the child has no clue what a 
sidewalk is because we don't have sidewalks in most of the 
villages in Alaska, doesn't even know what the terminology 
means. It is little things, it is anecdotal, but it does cause 
me to wonder.
    Mr. Moore, let me ask you as you are more than aware, in 
Alaska we do not receive BIE funding for our schools. Can you 
tell the Committee whether or not the legislation we are 
considering--and I appreciate the fact you are just now looking 
at it--might have any impact on Alaska Tribes?
    Mr. Moore. It would be very difficult to do that right now, 
Senator, to comment specifically on it. I would like to hold 
that until I return my thoughts to you but at this time, I 
would like to reserve those.
    Senator Murkowski. As you do your review and make an 
assessment to the committee, I would be curious to know whether 
or not you think it would have an impact and if so, how it 
might impact Alaska Tribes.
    Mr. Moore. Certainly.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Murkowski.
    Mr. Mendoza, throughout the consultations process, and in 
committee records, Native leaders have asked for a senior level 
position at the Department of Education to oversee Native 
education. Is the Department taking steps to fulfill that 
request?
    Mr. Mendoza. Thank you, Senator, for that question.
    We also heard from tribal leaders how important it is to 
have a senior level position for Indian education. Secretary 
Duncan has already made a commitment to create a senior level 
advisor who would be able to drive the Department's Indian 
education agenda on a daily basis. Our challenge is making sure 
that position is sustainable and that it is institutionalized.
    The Chairman. Mr. Moore, the Native CLASS Act has a large 
focus on bringing language and culture into the classroom. We 
have also heard that this is a priority for this 
Administration. How can the Bureau of Indian Education bring 
language and culture into the classroom in its 184 schools?
    Mr. Moore. Thank you for the question, Mr. Chairman.
    We believe that we have been one of the biggest supporters 
over the years of language and culture when we look at budget 
figures. If you look at our Indian Student Equalization 
Program, affectionately called the ISEP Program, within that is 
a weighted figure that we fund a different number of line items 
and one of them is language. In our last fiscal year, we 
appropriated $25,380,100 to our 183 schools specifically for 
language and culture development. We will continue to have that 
line item and our line item goes out to schools on a per school 
basis.
    One of the thing we would like to do going forward is to 
continue to support funding for that and also begin to have a 
nice dialogue about the curricula and assessments that are in 
place through those dollars that are really impacting students 
with language development.
    The Chairman. Thank you very much for that. I have other 
questions that I will submit to you for the record.
    Senator Tester, do you have any further questions. Ms. 
Murkowski?
    Let me say thank you so much to this panel for being here 
today and providing this valuable information. I just want you 
to know that we want to improve Indian education in our country 
and look forward to working with you on this issue. Thank you 
very much.
    If you have any further comments, Mr. Mendoza?
    Mr. Mendoza. Thank you, Mr. Chairman.
    I wanted to also let the Committee know that the National 
Advisory Council on Indian Education is releasing their report 
today and we will provide you with that report. We would love 
to discuss that with you further at a later time.
    The Chairman. Very good.
    Mr. Moore?
    Mr. Moore. I have one last comment for Senator Murkowski. 
One thing that came to mind was Elizabeth Hensley, a person in 
the Assistant Secretary's office who is working specifically on 
Alaska Native issues. It just came to my head that may be a 
good place for us to go to talk about the specifics of your 
question.
    I would also like to say to Senator Tester, you do have a 
great leader in Montana, Denise Juneau was the Indian Education 
Director when I was the Indian Education Director in South 
Dakota. A few weeks ago, we had the chance at a Rural Chief 
State Schools Officers meeting to sit down with her for a 
couple days. She is a very impressive, very strong leader, a 
good woman and leader in terms of what is going on in Montana.
    Mr. Tester. Thank you.
    The Chairman. Let me just give you another opportunity if 
you have any other comments to make about Indian education, 
please do that.
    Thank you very much. We really appreciate you being here.
    Let me call the second panel. I would like to invite the 
second panel to the witness table. First is the Honorable 
Cedric Cromwell, Chairman of the Mashpee Wampanoag Tribe from 
Mashpee, Massachusetts. Mr. Cromwell also serves on the Board 
of Directors of the United South and Eastern Tribes.
    Next is Mr. Scott Russell, Rocky Mountain Region Area Vice 
President for the National Congress of American Indians. Mr. 
Russell also serves as the Secretary for the Crow Tribe located 
in Crow Agency Montana.
    Ms. Amy Bowers is a staff attorney for the Native American 
Rights Fund located in Boulder, Colorado.
    I want to welcome you all to this hearing.
    Chairman Cromwell, will you please proceed with your 
testimony?

         STATEMENT OF HON. CEDRIC CROMWELL, CHAIRMAN, 
         MASHPEE WAMPANOAG TRIBE; BOARD OF DIRECTORS, 
                UNITED SOUTH AND EASTERN TRIBES

    Mr. Cromwell. Good afternoon, Mr. Chairman, Senator Akaka 
and the Committee.
    I want to thank you from the Mashpee Wampanoag Tribe and 
the USET Board of Directors, for holding this hearing and the 
diligent work that you do for Indian country. It is a very 
important issue so we appreciate it and thank the Committee. S. 
1262 is very important. The revisions that are going to happen 
towards federal education laws that support the experience of 
Native American children are very important to us, so we 
appreciate what you are doing.
    Representing USET, there are 26 Tribes that comprise USET, 
located in 12 States from Maine to Florida and west into 
eastern Texas. In comparison to our sister Tribes west of the 
Mississippi River, USET Tribes have smaller populations and 
smaller reservations. In the case of the Mashpee Wampanoag 
Tribe, we are a Tribe without a federal land base, we are a 
landless Tribe, so we have no reservation to conduct 
governmental activities including economic development, 
housing, health care and education. We are under funded in many 
ways by the Federal Government not in comparison with Tribes 
throughout the United States but also compared to other USET 
Tribes.
    Our people suffer from high rates of poverty, related 
illnesses and issues including a high school graduation rate of 
only 48 percent. It is our belief that education is the best 
way to not only provide our children with the tools they need 
to be successful, productive adults, but also to lift our Tribe 
out of poverty for generations to come.
    While our Tribe has taken great steps to offer support to 
and advocate for our children in the public school system, we 
simply do not have the resources to fully address the problem. 
Currently, we have five service delivery areas in Massachusetts 
with three major concentrations of 300-plus enrolled tribal 
members in Barnstable, Bristol and Suffolk Counties. Presently, 
we receive very little in the way of Title VII money, $40,000 
to be exact, which is used to fund tutoring, Native American 
teachers, educational advocacy and development of curricula 
designed to meet the learning style of our tribal students in 
public schools. The funding is clearly deficient and fails to 
provide our Tribe with the minimum resources we need to 
confront the very real challenges of Mashpee Wampanoag students 
in the public school system.
    Too many of our children are desperate to be treated with 
respect and dignity in the education system. Too often, 
children with learning challenges or different needs are over 
medicated and they say given them Ritalin, that is the answer, 
and their individual and culturally specific needs are ignored. 
The results are clear when fewer than half of our tribal 
citizens are receiving a high school diploma.
    We need funding and authority to do more for our children. 
That is why I am here today to express my support for the 
Native CLASS Act. We applaud the bill language that would give 
public schools greater flexibility in designing programs to 
meet the needs of their Indian students, the requirement for a 
local educational agency, LEA, to enter into a cooperative 
agreement with the Tribe to assist with the planning and 
operation of the program, and the requirement for the LEA to 
develop programs in consultation with committees comprised of 
Indian parents and teachers.
    USET is disappointed that S. 1262 does not include a key 
recommendation of the tribal organization team that called for 
the creation of centers for innovation and tribally directed 
education. The purpose of this proposal is to assist Tribes 
with capacity building to enable them to effectively exercise 
their rights and authority to direct delivery of educational 
services to Indian children. We urge the Committee to amend S. 
1262 to include this proposal.
    Finally, we are strongly in support of the initiative 
within the bill to assist the Tribes in recruiting high quality 
teachers and principals. We are especially interested in 
implementing the Troops As Teachers Program, given the high 
percentage of Native American citizens who volunteer to serve 
in the U.S. armed forces.
    In addition, in Indian country, we talk a lot about self 
determination and one of our core beliefs is that as tribal 
nations, we must be able to provide for our people. This bill 
not only works toward the goal of improving the ability of 
Tribes to education our young people, but it also increases the 
ability of individual tribal children to achieve self 
determination by giving them the opportunities and tools they 
need to become healthy and productive adults.
    Thank you my friends.
    [The prepared statement of Mr. Cromwell follows:]

Prepared Statement of Hon. Cedric Cromwell, Chairman, Mashpee Wampanoag 
       Tribe; Board of Directors, United South and Eastern Tribes
    Good afternoon Mr. Chairman and members of the Committee. My name 
is Cedric Cromwell. I am Chairman of the Mashpee Wampanoag Tribe in 
Massachusetts. I appear here today to present testimony on behalf of 
the United South and Eastern Tribes on S. 1262, the Native CLASS Act 
which makes valuable and needed revisions to Federal education laws to 
improve the educational experience of Indian children.
    The 26 Tribes that comprise USET are located in 12 states--from 
Maine to Florida and west into eastern Texas. In comparison to our 
sister tribes west of the Mississippi River, the USET tribes have 
smaller populations and smaller reservations. Nonetheless, through the 
strength that comes from unity of purpose and the shared objectives of 
improving the quality of life of Indian people and full recognition of 
the sovereign rights of tribal governments, USET has become a highly 
regarded Indian Country advocate over the past 42 years.
    In the case of the Mashpee Wampanoag Tribe, we are a Tribe without 
a federal land base, so we have no reservation on which to conduct our 
governmental activities, including economic development, housing, 
health care, and education. Our people suffer disproportionally from 
poverty-related illnesses and issues, including a high school 
graduation rate of only 48 percent. It is our belief that education is 
the surest way to not only provide our children with the tools they 
need to be successful, productive adults, but also to lift our Tribe 
out of poverty for generations to come.
    While our Tribe has taken great steps to offer support to and 
advocate for our children in the public school system, we simply do not 
have the resources to fully address the problem. Too many of our 
children are desperate to be treated with respect and dignity in the 
education system. Too often, children with learning challenges or 
different needs are overmedicated, and their individual and culturally-
specific needs are ignored.
    We need the tools to do more for our children. We need the funding 
and the authority to partner with the public schools to make sure our 
children are receiving the services they may need, to help combat 
health-related issues, provide culturally-appropriate curriculum, give 
Native parents a voice of boards and committees, and to train Native 
teachers.
    That is why I am here today to express my support for the Native 
CLASS Act.
    S. 1262 has two core and inter-related themes: First, requiring 
schools to take seriously their responsibility to meet the unique 
educational needs of Indian children in order to help them achieve 
academically; and second, recognizing that Indian tribes possess 
governmental authority in the performance of elementary and secondary 
education programs for their children.
    USET is particularly equipped to address S. 1262 issues because the 
children of our member tribes are educated in both public schools and 
in tribally-operated schools funded by the Bureau of Indian Education. 
S. 1262 contains important provisions for Indian children enrolled in 
both types of schools. Working with our sister organizations, the 
National Congress of American Indians (NCAI) and the National Indian 
Education Association (NIEA), USET helped develop legislative 
recommendations for the Committee's consideration. We are very pleased 
that a large percentage of our recommendations were included in S. 
1262.
USET Children in Public Schools
    Where our USET tribal children are educated in public schools, they 
constitute a small percentage of the overall student population, a 
circumstance that often means our Indian children are overlooked by 
school authorities. Since some 90 percent of Indian children in the 
nation are educated in public schools, tribes must have a meaningful 
role in the delivery of services to these students. Thus, we are 
particularly supportive of the S.1262 provisions intended to require 
States and local public schools that educate Indian children to take 
into account the educational and cultural needs of those children in 
designing their educational plans. We also heartily support requiring 
these public schools to provide training for teachers in the Indian 
cultures of the Indian children, and to develop culturally responsive 
teaching and learning strategies to better serve our children. 
Contracts with Indian tribes would be the most effective way to carry 
out these obligations.
    USET applauds the insertion of requirements throughout the ESEA 
titles for States and local educational agencies to consult with tribes 
on a continuing basis in the development of school plans and programs, 
and the establishment of meaningful mechanisms through which Indian 
tribes can elect to exercise hand-on control over educational programs.
    Since the public school student populations of USET tribes is 
comparatively small in the communities in which they are located, our 
tribes will not qualify for the bill's innovative programs for tribes 
whose children constitute high percentages of public school 
populations--particularly on-reservation public schools. Thus, I want 
to focus on the bill's provisions that have the potential to 
affirmatively impact the public schools in which USET tribal children 
are enrolled.
    Safe and Healthy Schools for Native American Students. USET 
supports bill Sec. 141 which requires the Secretary of Education to 
create unique programs to target social and nutritional issues 
prevalent in Indian communities, such as alcohol/drug abuse; suicide; 
violence; teen pregnancy; obesity; and school dropout. One affirmative 
effort expressly mentioned is establishment of tribal-specific school 
gardens to aid Indian students in pursuing sound nutrition goals.

  <bullet> Recommendations:

         (1) Sec. 141 does not identify the schools that should offer 
        the programs the Secretary develops under this authority. The 
        provision should be amended to require the Secretary to supply 
        these programs to all public schools that are eligible for the 
        Formula Grant Programs under Title VII (schools with 10 or more 
        Indian students are eligible), and to strongly encourage them 
        to provide appropriate programs for their Indian student 
        population, perhaps as part of the program carried out under 
        the Formula Grant.

         (2) It seems to us that Indian tribes are well-equipped to 
        work with the Secretary in designing the programs called for by 
        Sec. 141. Thus, we suggest the provision be amended to direct 
        the Secretary to work in cooperation with tribes, to the extent 
        practicable, in developing the programs.

         (3) We recommend that Sec. 141 be amended to require the 
        Secretary to establish these programs within one year after 
        enactment of S. 1262.

    Title VI, Part A--Formula Grant Program [Bill Secs. 152-159]. This 
is a significant program for USET tribes that operate BIE-funded 
schools, but it is even more significant for the tribes whose children 
attend public schools where Indian components in the curriculum are not 
customary. Its purpose is to infuse into the educational program an 
Indian component for these students who might otherwise have no 
opportunity for culturally relevant curriculum. Since tribes are 
already involved in development of the Title VII programs offered at 
the BIE-funded schools, I will focus my comments on the revisions that 
strengthen this program for Indian children in public schools. I 
express gratitude to the bill's sponsors for accepting these 
recommendations offered by our tribal organization workgroup (NCAI, 
NIEA and USET).

  <bullet> Indian-specific programs. We applaud the bill language that 
        would give public schools greater flexibility in designing 
        programs to meet the needs of their Indian students. The 
        current law ties the Title VII program too closely to Title I 
        requirements, leaving little opportunity for schools to offer 
        programs that address the specific educational and cultural 
        needs of the Indian student population. Similarly, we support 
        the requirement that a school proposing to combine Title VII 
        grant funds into a schoolwide program (serving all students in 
        the school, both Indian and non-Indian) must first demonstrate 
        that a schoolwide program would provide benefits to the Indian 
        students that would not be achieved if the funds were used for 
        a program serving Indian students, only. The ``Indian'' 
        character of these funds should be preserved.

  <bullet> Tribe-School cooperative agreements. We also strongly 
        support the requirement for a Local Educational Agency, at the 
        request of a tribe with a plurality of Indian children enrolled 
        with the LEA, to enter into a cooperative agreement with the 
        tribe to assist with the planning and operation of the program. 
        Not only will this provision advance the concept that Indian 
        tribes have the right and responsibility to be meaningfully 
        involved in educational matters, a partnership between the LEA 
        and the tribe will result in more focused and effective 
        programs.

  <bullet> Tribal representation on Parent Committee. A core component 
        of the Formula Grant Program is the requirement for the LEA to 
        develop programs in consultation with a committee comprised of 
        Indian parents and teachers. As recommended by USET, S. 1262 
        expands that committee to include representatives of Indian 
        tribes located within 50 miles of the school if such tribes 
        have children enrolled in the school. This provision recognizes 
        that often Indian people prefer to act through their tribes in 
        relationships with non-tribal entities such as public school 
        districts. Plus, tribal representation on these committees can 
        provide valuable program experience and continuity that 
        individual parents alone cannot provide, as when their children 
        age out of school, parental participation is likely to end.

  <bullet> Provisions that facilitate establishment of a program. It is 
        unfortunate that some eligible LEAs do not bother to apply for 
        a Title VII grant. S. 1262 seeks to change this outcome by 
        making it easier for an Indian entity to apply for a grant when 
        the LEA does not do so. It authorizes a tribe representing a 
        plurality of the students to apply for the grant and operate a 
        program. Or if neither the LEA nor a tribe applies, a committee 
        comprised of Indian people in the community may apply to be the 
        grantee. That latter option can help provide a program for 
        Indian children in schools that are far distant from any tribe. 
        We also support the provision requiring the Secretary of 
        Education to perform outreach to eligible LEAs who have not 
        applied for a grant and supply technical assistance to help 
        them do so.

         Recommended revision: On page 103, lines 6-7 should refer to 
        ``schools funded by the Bureau of Indian Education'' rather 
        than only to schools operated by the BIE, as the Secretary's 
        outreach and assistance efforts should extend to all BIE-funded 
        schools, both those operated by BIE and those operated by 
        tribes.

  <bullet> Student Eligibility Forms. We thank the bill sponsors for 
        including the USET recommendation that would require an LEA to 
        maintain in its records a determination that a child is an 
        eligible Indian and thus prohibit a practice at some schools 
        that a student's Indian eligibility be re-proved year after 
        year.

    Coordination of Indian Student Information. USET supports the 
proposed new Sec. 7137 for creation of a mechanism to facilitate the 
orderly exchange of Indian student educational and health records 
between schools. The mobility of Indian children between public 
schools, between BIE-funded schools, and between public and BIE funded 
requires a system for schools to easily access and supply student 
records so that the educational progress of the student is not 
interrupted by the failure of his/her records to follow the student to 
a new school.
    Tribal Education Agencies Pilot Project. This innovative provision 
would create a new Sec. 7124 to authorize tribes (or tribal consortia) 
to administer State educational agency functions through grants from 
the Secretary of Education. The ultimate objective is to give tribes a 
meaningful opportunity to exercise their governmental authority over 
elementary and secondary education affecting their children.

  <bullet> Recommendation: USET is disappointed that S. 1262 does not 
        include a key recommendation of the tribal organization team 
        that called for creation of Centers for Innovation in Tribally-
        Directed Education in ESEA Title V [Innovative Programs]. The 
        purpose of this proposal is to assist tribes with capacity-
        building to enable them to effectively exercise their rights 
        and authority to direct delivery of educational services to 
        Indian children. We urge the Committee to amend S. 1262 to 
        include this proposal.

    Authorization of Appropriations for Title VII, Part A. Our tribal 
organization team recommended new funding levels for the programs 
authorized by Title VII, Part A to properly fund both existing programs 
and the new ones recommended by the team. Those recommendations are 
included in S. 1262 as revisions to Sec. 7152. We must point out, 
however, that since the Akaka bill adds three additional new programs 
to Part A, the authorization of appropriations must be increased to 
appropriately fund all programs. The three additional programs added to 
Part A by S. 1262 are laudable and should not have to compete with 
other existing and new programs for funding. The three programs added 
by S. 1262 are:

  <bullet> Bill Sec. 162 creating a new Sec. 7125--Teacher and 
        Administrator Pipeline for Native American Students

  <bullet> Bill Sec. 163 creating a new Sec. 7126--National Board 
        Certification Incentive Demonstration Program

  <bullet> Bill Sec. 164 creating a new Sec. 7127--Tribal Language 
        Immersion Schools. We note that this provision carries its own 
        authorization of appropriations; thus, notice of this separate 
        authorization should appear in Sec. 7152 to avoid any 
        confusion.

USET Children in Bureau of Indian Education-Funded Schools
    Seven USET tribes operate a total of 16 schools on their 
reservations that are funded by the Bureau of Indian Education in the 
Interior Department. These schools are operated under Indian Self-
Determination Act contracts or Tribally Controlled Schools Act grants. 
USET has a keen interest in assuring that these schools are adequately 
funded and that the tribes have the authority to operate these schools 
efficiently and effectively. For these reasons, USET worked with the 
tribal organization team to recommend provision to help achieve these 
goals.
    We identify below provisions in S. 1262 that directly benefit 
tribally-operated BIE schools and urge the Committee to retain them:

  <bullet> ESEA Title I--Improving the Academic Achievement of 
        Disadvantaged Students. These revisions to NCLBA Sec. 1116(g) 
        are intended to facilitate approval of a tribally-proposed 
        alternative definition of Adequate Yearly Progress by placing a 
        deadline on the Secretary of the Interior for action on a 
        tribal proposal. Current law imposes no deadline for agency 
        action, a circumstance that has prevented any tribal proposal 
        from being approved.

  <bullet> ESEA Title II--Recruiting High Quality Teachers and 
        Principals.

        -- S. 1262 accepts our recommendation to include BIE-funded 
        schools in the definition of ``high needs LEA'' to make these 
        schools eligible for funding to aid in the recruitment and 
        retention of high quality education professionals.

        -- We also support the proposal to increase to 5 percent the 
        set-aside for distribution to BIEfunded schools for teacher/
        principal recruitment and retention activities.

        -- The bill would also make information from State teacher 
        recruitment clearinghouses available to BIE schools in the 
        State.

        -- Amendments to the Math and Science Teacher program and the 
        Troops to Teachers program to provide for BIE schools 
        eligibility.

        -- USET also strongly supports the proposed new Sec. 2161 which 
        creates an Indian Educator Scholarship Program intended to 
        encourage more Indian people to enter the teaching profession 
        and to serve in schools with significant Indian enrollment 
        (both public schools and BIE schools).

  <bullet> ARRA ``Race to the Top'' elementary and secondary school 
        reform program. BIE-funded schools were inadvertently omitted 
        from this multi-billion dollar competitive grant program. Sec. 
        201 of S. 1262 would cure this omission.

  <bullet> ARRA funding for Early Childhood Education. Sec. 201 of S. 
        1262 would also cure the omission of any mention of a tribal 
        role in the development of early childhood programs for which 
        $500 million is now available. The bill's provision would 
        require States to collaborate with tribes to assure that 
        services are provided to Indian children, and authorizes States 
        to make subgrants to tribes. In fact, it would be a good idea 
        to amend the provision to give competitive preference points to 
        States that demonstrate they will award subgrants to tribes.

  <bullet> Tribal Education Policy Advisory Group. Bill Sec. 203 would 
        require the Secretary of the Interior to establish an advisory 
        group comprised of elected tribal leaders to advise the 
        Secretary on budget and policy issues affecting the BIE school 
        system. It is intended to give elected officials of tribes 
        which host BIE schools a greater role in policymaking.

  <bullet> BIE school budget requests. Bill Sec. 204 requires the 
        Secretary of the Interior to reveal in annual budget 
        submissions the amount necessary to sustain BIE school academic 
        and residential programs pursuant to the regulations at 25 CFR 
        Part 39, subpt. H. This regulation has been in effect for 
        several years, but the Secretary's budget requests have not 
        provided the information required by the regulation.

  <bullet> Amendments to the Tribally Controlled Schools Act. Most of 
        the USET tribes with BIE schools operate those schools through 
        grants authorized by the TCSA. We support the technical 
        amendments to that law, including creation of a mechanism for 
        tribes to amend their TCSA grants.

    Puzzling Omission: Proposed amendment to Administrative Cost Grant 
provision for Tribally-operated BIE Schools. We are disappointed that 
S. 1262 does not contain an important amendment proposed by the tribal 
organization team that is intended to improve the funding of 
administrative costs provided to tribes that operate BIE schools. 
(Administrative cost grants have been renamed ``tribal grant support 
costs'' by the BIA budget.) Administrative cost grants have been so 
chronically under-funded that BIE is now providing only 61 percent of 
the amount required by law (25 USC  2008) to adequately cover the 
indirect/administrative costs of tribes and tribal school boards.
    The tribal organization team recommended that when submitting AC 
Grant budget requests, the Secretary of the Interior be required to 
request a separate budget to fund the first year AC Grant for schools 
that newly convert to tribal operation, and to include that amount in 
the subsequent year's budget for AC Grants. The objective of this 
recommendation is to prevent further reduction in funding for tribes 
that operate BIE schools. Under the current practice, when a new school 
converts to tribal operation, funding to tribes who already operate 
such schools is reduced to provide funding for the new conversions. The 
United States has an obligation to properly fund the administrative/
indirect costs of tribes who operate BIA and BIE programs. That 
obligation is being flagrantly violated with regard to tribes who 
operate BIE schools.
    Thus, we urge the Committee to amend S. 1262 to include the 
amendment to this provision recommended by the tribal organization 
team.
Conclusion
    On behalf of the United South and Eastern Tribes, I express 
gratitude to this Committee for the attention it has given to the need 
to amend Federal education laws for the benefit of Indian students and 
to enhance the authority of Indian tribes to have a meaningful role in 
the education of their children.

    The Chairman. Thank you very much, Chairman Cromwell.
    Mr. Russell, will you please proceed with your testimony?

STATEMENT OF SCOTT RUSSELL, ROCKY MOUNTAIN AREA VICE PRESIDENT, 
                 NATIONAL CONGRESS OF AMERICAN 
                INDIANS; SECRETARY, CROW NATION

    Mr. Russell. [greeting in native language]. Aloha to you, 
Mr. Chairman. Thank you for having us here today, Senators 
Murkowski and Barrasso, and a good friend, John Tester, a 
special hello to you and thank you for being here.
    The Chairman. Aloha.
    Mr. Russell. Thank you for giving me the opportunity to 
testify today.
    My name is Scott Russell. I serve as the Rocky Mountain 
Area Vice President of the National Congress of American 
Indians. I am also the Secretary of the Great Crow Nation of 
Montana.
    NCAI strongly supports the work of the committee in setting 
the pace for the reauthorization of the Elementary and 
Secondary Education Act. We applaud the committee for its 
leadership and swift movement. I would like to outline for you 
today two overarching goals and briefly discuss strategies that 
we believe can be used to accomplish them.
    The first goal is tribal governments must be able to 
exercise local control over our educational system. Indian 
nations have the largest stake in improving the education of 
their citizens. There is no more vital resource to the 
continued existence and integrity of Indian Tribes than their 
children. They are our most precious resource. We believe the 
following recommendations will accomplish this goal.
    Number one is strengthening the tribal government role in 
education. Tribes are overwhelmingly supportive of local 
control over education and they are well-positioned to address 
the educational needs of our children. To do so, however, our 
Tribes and our educational departments must be afforded the 
same status as state education agencies within our lands.
    Number two is consultation with Tribes. The Department of 
Education must begin consulting directly with tribal 
governments prior to making changes that may affect the 
education of Indian children or adults. This would be best 
accomplished by adjusting the current National Advisory Council 
on Indian Education from being an advisory committee to 
becoming a tribal leader committee.
    The third goal we have is that all of our students, 
regardless of where they attend school, should be eligible for 
the same programs and services as the general population. The 
federal trust responsibility for Indian education must be 
recognized in all education policies. We must have priorities 
equal to those of other citizens and to participate in all 
programs and services offered within ESEA. We believe the 
following recommendations will accomplish this goal.
    First is funding for Bureau of Indian Education schools. 
You need to express statutory language that must be included to 
make funding available for the BIE schools. Without this 
express language, our BIE school system will be unable to 
participate or receive much needed funding. A recent example 
lies in the ineligibility of the BIE to apply for or receive 
Race to the Top grants.
    Second is collaboration between the Department of Interior 
and the Department of Education. The Secretaries of Education 
and Interior should collaborate to provide training and 
technical assistance to the BIE Tribes and schools operated 
under grants and contracts. We suggest that the collaboration 
include assistance in curriculum selection, use of alternative 
assessments for tribal schools and instructional practices.
    Last, I would like to discuss the importance of investing 
in cultural language and revitalization programs. While this 
issue is woven into both those goals, we believe its urgency 
and importance should be singled out. The survival of Native 
language and culture is critical to the success of our 
communities and our ways of life.
    The existing Native language programs in schools have 
demonstrated that our schools are more engaged and successful 
when offered the opportunity to study their traditional ways. 
We believe the following recommendations will accomplish this 
goal.
    Number one is formula grant programs for immersion schools. 
It is largely recognized that the best way to learn a language 
is to fully immerse oneself. However, the key for these 
programs to work is sustainability. It is critically important 
that our Native language programs are provided long term, 
sustainable funding.
    Second is long term investment in culture-based education. 
Culture-based education is a teaching model that encourages 
quality instructional practices, rooted in culture and 
linguistically relevant contexts. For Native communities, this 
includes teaching our language, but also means incorporating 
traditional cultural characteristics and teaching strategies 
that are harmonious with Native cultural and contemporary ways 
of knowing.
    Next is the Path Act. In addition to the ESEA language 
programs proposed in the bill, I urge this committee to work 
with our Senator, John Tester, from Montana to include the 
important tribal college focus, Native language research and 
education programs which he included in legislation which was 
introduced in the 111th Congress as part of the Path 
legislation.
    To revitalize our languages, we must work at all levels and 
it takes a community. We have to start from pre-K all the way 
through the college level.
    In conclusion, I would like to offer my comments as well as 
additional language recommendations for the Native CLASS Act 
from the National Congress of American Indians for the record. 
Thank you for inviting me to speak with you today and for 
making Indian children a priority. We look forward to working 
with this committee in the future in finalizing a bill.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Russell follows:]

     Prepared Statement of Scott Russell, Rocky Mountain Area Vice 
   President, National Congress of American Indians; Secretary, Crow 
                                 Nation
    Good morning, Chairman Akaka, Vice Chairman Barrasso, and members 
of the Committee. Thank you for giving me the opportunity to testify 
today. My name is Scott Russell. I serve as the Rocky Mountain Area 
Vice President of the National Congress of American Indians (NCAI) and 
as the Secretary of Crow Nation.
    NCAI is the oldest and largest American Indian organization in the 
United States. As the most representative national Indian organization, 
we serve the broad interests of tribal governments across the nation. 
NCAI was founded in 1944 in response to termination and assimilation 
policies. Since then, we have fought to preserve the treaty rights and 
sovereign status of Indian tribes and to ensure that Indian people may 
fully participate in the political system. As such, we strongly support 
the work of the Committee in setting the pace for the reauthorization 
of the Elementary and Secondary Education Act (ESEA) with the 
introduction of Senate bill 1262, the ``Native Culture, Language, and 
Access for Success in Schools Act''. We applaud the Committee for its 
leadership and swift movement.
Framework for Tribal Sovereignty in ESEA
    I would like to set the tone of our testimony by quoting Wilma 
Mankiller, former Principle Chief of the Cherokee Nation, and life-time 
advocate for Indian Country:

        ``I don't think anybody anywhere can talk about the future of 
        their people without talking about education. Whoever controls 
        the education of our children controls our future.''

    This statement is the central premise for the recommendations that 
NCAI, and our partners, the United South Eastern Tribes and the 
National Indian Education Association, offered to the Committee for the 
reauthorization of the ESEA. I would like to outline for you today our 
two overarching goals, and briefly discuss strategies that we believe 
can be used to accomplish them.
Goal 1: Tribal Governments must be able to exercise local control over 
        our 
        educational system.
    Indian nations have the largest stake in improving the education of 
their citizens. We must prepare them for active and equal participation 
in the global market. We must prepare them to be citizens in the 21st 
century. We must prepare them to be positive, involved members of our 
communities. And, most importantly, we must prepare them to be the 
future leaders of our governments. There is no more vital resource to 
the continued existence and integrity of Indian tribes than their 
children. We believe the following recommendations will accomplish this 
goal:

        1. Strengthening Tribal Governments Role in Education. Tribes 
        are overwhelmingly supportive of local control over education, 
        and they are well-positioned to address the educational needs 
        of our children. To do so however, our tribes and our tribal 
        education departments must be afforded the same status as State 
        Education Agencies within our lands.

        2. Consultation with Tribes. The government-to-government 
        relationship that exists between Indian tribes and the Federal 
        Government is derived from the legal status of tribal 
        governments and only occurs between the Federal Government and 
        elected tribal leaders. As such, the Department of Education 
        must begin consulting directly with tribal governments, prior 
        to proposing regulation, establishing or changing policy, or 
        submitting any budget proposal that may affect the education of 
        Indian children or adults. This would be best accomplished by 
        adjusting the current National Advisory Council on Indian 
        Education from being an advisory committee to being a tribal 
        leader committee.

Goal 2: All of our students, regardless of where they attend school, 
        should be eligible for the same programs and services as the 
        general population.
    Providing education to American Indians and Alaska Natives is a 
federal obligation because of the unique legal status of Indian people. 
When Indian tribes ceded certain lands--lands which now constitute the 
United States--agreements were made between tribes and the United 
States government that established a ``trust'' responsibility for the 
safety and well-being of Indian peoples in perpetuity. In addition, a 
number of treaties specifically outlined the provision of education, 
nutrition, and health care. Therefore, the federal trust responsibility 
for American Indian and Alaska Native education must be recognized in 
all education policies.
    At the same time, as United States citizens, American Indians and 
Alaska Natives should have opportunities equal to those of other 
citizens to participate in the benefits of all programs and services 
offered within the reauthorization. We believe the following 
recommendations will accomplish this goal:

        1. Funding for Bureau of Indian Education Schools. Express 
        statutory language must be included to make funding available 
        for the Bureau of Indian Education (BIE) schools (either 
        overarching the Act or within each ESEA program). Without 
        express statutory language, our BIE school system will be 
        unable to participate or receive much-needed funding. The most 
        recent example of this lies in the ineligibility of BIE to 
        apply for or receive ``Race to the Top'' grants.

        2. Collaboration between the Department of the Interior and the 
        Department of Education. The Secretary of Education should 
        collaborate with the Secretary of Interior to provide training 
        and technical assistance to the BIE, tribes, and schools 
        operated under grants and contracts from the BIE. We suggest 
        that the collaboration include assistance in curriculum 
        selection, use of alternative assessments for tribal schools, 
        and instructional practices.

Investment in Cultural and Language Revitalization
    Lastly, I would like to discuss the importance of investing in 
cultural and language revitalization programs. While this issue could 
easily be, and is, woven into our two goals above, we believe its 
urgency and importance should be singled out.
    The survival of Native language and culture is critical to the 
success of our communities and ways of life. Existing Native language 
programs and schools have demonstrated that our students are more 
engaged and successful when offered the opportunity to study their 
traditional ways. Additionally, these programs are proven to be a 
protective factor for youth exposed to violence. To that end, tribes 
believe that the ESEA reauthorization should support an investment in 
Native cultural and language revitalization. We believe the following 
recommendations will accomplish this goal:

        1. Formula Grant Programs for Immersion Schools. It is largely 
        recognized that the best way to learn a language is to fully 
        immerse oneself. While we have limited statistical data showing 
        that Native language instruction directly improves academic 
        success, there is a large body of qualitative data that shows 
        correlation of Native language instruction to factors that do 
        improve academic success. Therefore it is critically important 
        to have sustainable funding for research that will demonstrate 
        this statistical correlation.

        2. Long Term Investment in Cultural Based Education. By 
        definition, Cultural Based Education (CBE) is a teaching model 
        that encourages quality instructional practices rooted in 
        cultural and linguistically relevant context. For Native 
        communities, this includes teaching our Native language, but it 
        also means incorporating traditional cultural characteristics 
        and teaching strategies that are harmonious with Native 
        cultural and contemporary ways of knowing. We know that our 
        students perform better academically when they have a sense of 
        pride and self-esteem, and CBE provides this vital foundation.

Conclusion
    I would like to offer my comments, as well additional language 
recommendations for the Native CLASS Act from NCAI for the record. *
---------------------------------------------------------------------------
    * The additional language recommendations for the Native CLASS Act 
have been retained in Committee files.
---------------------------------------------------------------------------
    Thank you for inviting me to speak with you today; and thank you 
for making Indian children a priority. We look forward to working with 
the Committee in the following weeks to finalize a bill. I will be 
happy to answer any questions that you may have.

    The Chairman. Thank you very much, Mr. Russell, for your 
testimony.
    Ms. Bowers, will you please proceed with your testimony?

STATEMENT OF AMY BOWERS, STAFF ATTORNEY, NATIVE AMERICAN RIGHTS 
                              FUND

    Ms. Bowers. [greeting in native language].
    Good afternoon, Chairman and Members of the Committee. 
Thank you for inviting me to testify on S. 1262, the Native 
CLASS Act.
    My name is Amy Bowers and I am staff attorney at the Native 
American Rights Fund. I am also a member of the Yurok Tribe and 
I represent the Tribal Education Departments National Assembly.
    First, I would like to unequivocally thank the Committee 
for this bill. NARF and TEDNA are greatly appreciative of it 
and we support it. Its excellence reflects that the committee 
has really listened to Indian country. It incorporates very 
well so many of the key recommendations that TEDNA, other 
Indian organizations and major reports have urged. The bill's 
provisions regarding tribal access, tribal education agencies, 
TEAs, and cooperative agreements, all of which my testimony 
will address, are indeed unprecedented.
    Currently, over 93 percent of K-12 Native American students 
attend public schools on and off Indian lands. There are 740 
elementary and secondary public schools in this country located 
on Indian lands. Many of these schools have a student 
population that is predominantly Native American and in a high 
number of these schools, the population is overwhelmingly 
Native American.
    As you mentioned earlier, Mr. Chairman, our students aren't 
performing well in these schools and they are dropping out at a 
higher rate than any other student group. The high drop out 
rate is linked to unemployment, drug and alcohol issues, teen 
pregnancies and other major social issues. Previous 
reauthorizations of the Elementary and Secondary Education Act 
have tried to address these problems, but they have 
nonetheless, persisted.
    The many stakeholders who collaborated on this bill knew 
this and they knew that a new approach was called for, one that 
firmly recognizes and supports the role of tribal governments 
as sovereigns in addressing these problems. Are Tribes ready 
for this? Yes, they are ready and they have the capacity to be 
leading education agencies.
    Tribes with TEAs and education programs have improved 
schools, they have improved student performance and community 
relations. To continue this success, TEAs and Tribes need 
federal law support like the Native CLASS Act. Otherwise, 
Federal law will continue to exclude tribal governments in 
education, leaving TEA efforts unsupported and Tribes with 
little to no real control over the systems that teach the 
majority of their members.
    Notably, even with little true support in federal law, many 
Tribes have created TEAs and developed their capacities. Some 
Tribes are already performing local education agency, LEA and 
state education agency, SEA, functions without federal funding 
or authorizations. Some TEAs already do voluntarily what 
federal law requires and funds SEAs to do.
    In recognition of tribal government contributions, several 
States have already enacted specific laws acknowledging roles 
and responsibilities for tribal governments and public schools. 
The Federal Government provides billions of dollars annually to 
LEAs and SEAs but hardly any funding to TEDs and tribal 
governments for education.
    The enormous missed opportunity to invest in TEAs and 
Tribes for the sake of Native students must be seized. S. 1262 
does this. It aligns federal law with what is already happening 
and with what needs to happen. It carefully allocates new 
funding and authorizations between high capacity TEAs and 
developing capacity TEAs. This sound structure supports TEAs of 
all abilities and Tribes of all sizes in their efforts to 
contribute at appropriate levels to Native American student 
success.
    S. 1262 has new funding authorizations for Native American 
students. The new money will increase local control of 
education by bringing tribal governments, tribal communities 
and Indian parents into the schools. It will increase 
communication and collaboration amongst Tribes, LEAs and SEAs. 
It will empower TEAs to take the lead in developing culturally 
relevant curricula, teacher training and implementing tribal 
education goals and policies. The results will be an education 
system supported and directed by the community with rigorous 
academic standards based in tribal language and culture.
    A final note regarding S. 1262's important and innovative 
TEA Pilot Project. This project allows up to five Tribes to 
apply to the Department of Education to perform SEA functions 
and receive funding to support those activities in public 
schools on their lands. The Tribes are very excited about this 
project because it is a monumental step in achieving tribal 
sovereignty in education. It enables them to direct and control 
education on their reservation by performing high level SEA 
functions. These are core components of education of which 
tribal assumption has never before been expressly supported by 
federal law.
    In conclusion, NARF and TEDNA support this bill and we look 
forward to continuing to work closely with our partners to 
refine the bill. For example, we recommend ensuring that both 
authorizations for funding for tribal education agencies are at 
the level of $25 million and clarifying that all Tribes have 
equal access to much needed tribal member student data.
    Thank you.
    [The prepared statement of Ms. Bowers follows:]

   Prepared Statement of Amy Bowers, Staff Attorney, Native American 
                              Rights Fund
    Good afternoon, Chairman, Vice Chairman, and members of the 
Committee. Thank you for inviting me to testify on S. 1262, the Native 
CLASS Act. My name is Amy Bowers. I am a staff attorney at the Native 
American Rights Fund (NARF). I am also a member of the Yurok Tribe of 
Northern California. I represent the Tribal Education Departments 
National Assembly (TEDNA), a non-profit organization for tribal 
education departments and agencies nationwide.
    I'd first like to unequivocally thank the Committee for this bill. 
NARF and TEDNA are greatly appreciative of it and we support it. Its 
excellence reflects that the Committee has really listened to Indian 
country. It incorporates very well many of the key recommendations that 
TEDNA, other Indian organizations and major reports have urged--
elevation of the role of tribal governments in education, meaningful 
support of tribal education agencies (TEAs), and clear provisions for 
partnerships among other education entities and tribes. The bill's 
provisions regarding tribal access, TEAs, and cooperative agreements, 
all of which my testimony will address, are indeed unprecedented.
    Currently over 93 percent of K-12 Native American students attend 
public schools on and off Indian lands. There are 740 elementary and 
secondary public schools in this country located on Indian lands. Many 
of these schools have student populations that are predominately Native 
American, and in a high number of these schools the population is 
overwhelmingly (80-90 percent +) Native American.
    But, nationwide, Native American students perform lower on 
standardized tests than any other student group. The national Native 
American student high school dropout rate is over 65 percent, which is 
higher than any other group. The high dropout rate is linked to 
unemployment, drug and alcohol abuse, teen pregnancies, and other 
social issues. Previous reauthorizations of the Elementary and 
Secondary Education Act have tried to address these matters, but the 
problems have persisted. The many stakeholders who collaborated on S. 
1262 knew this, and knew that a new approach was called for--one that 
firmly recognizes and supports the role of tribal governments as 
sovereigns in addressing these problems.
    Many of us have been immersed in this bill but for those who 
haven't, they may be unfamiliar with the need for this innovation in 
federal education law. Simply put, tribal governments and TEAs must be 
empowered to become true partners with the states and schools in 
education. This bill is major first step in accomplishing this goal.
    Are tribes ready for this? Yes. They are ready and have the 
capacity to be leading agencies in education. TEAs can operate federal 
education programs. They can perform roles and activities of local 
education agencies (LEAs) and state education agencies (SEAs). Tribes 
with TEAs and education programs have improved schools, student 
performance, and community relations. To continue this success, TEAs 
need federal law support like S. 1262. Otherwise, federal law will 
continue to exclude tribes as governments in education; leaving TEA 
efforts unsupported and tribes with little to no real control over the 
systems that teach the majority of their members. This discourages 
tribal-state-school partnerships or even communication in education and 
ultimately, hurts Native American students.
    Notably, even with little to no true support in federal law, many 
tribes to date have created TEAs and developed their capacities. Some 
tribes are performing LEA and SEA functions--without federal funding or 
authorization. In short, some TEAs already voluntarily do what federal 
law requires and funds SEAs to do. Other tribes have fostered 
cooperative agreements with LEAs and SEAs in education. Moreover, in 
recognition of tribal government contributions several states recently 
have enacted laws specifically acknowledging roles and responsibilities 
for tribal governments in public schools.
    Through the now well-established federal policies of Indian self-
determination, tribal self-governance, and economic development tribes 
have vastly increased their governance, managerial and technical 
capacities and resources. Tribes operate their own health clinics, 
provide social services, and manage a variety of natural resources. In 
these areas tribes typically receive federal funding and must comply 
with applicable reporting and accountability requirements. It is time 
to include education among the vital services provided and resources 
managed by tribes.
    The Federal Government provides billions of dollars annually to 
SEAs and LEAs, but hardly any funding to TEAs and tribal governments 
for education. The enormous missed opportunity to invest in TEAs and 
tribes, for the sake of Native American students must be seized. S. 
1262 does this. It aligns federal law with what is already happening 
and with what needs to happen. S. 1262 carefully allocates new funding 
and authorizations between already high capacity TEAs and developing 
capacity TEAs. This sound structure supports TEAs of all abilities and 
tribes of all sizes in their efforts to contribute at appropriate 
levels to Native American student success.
    Will SEAs and LEAs see ``reduced'' funding under S. 1262? The bill 
allows for some shifts at the Secretary of Education's discretion, to 
tribes and TEAs in limited instances. Such shifts of course do not 
divert any funding from students served. In this sense, S. 1262 puts 
education funding on a par with many other pots of federal money that 
tribes and states share such as Temporary Assistance to Needy Families 
or environmental resources management funding. As in these areas, 
adding tribes as eligible grantees will improve programs and service 
delivery at the local level. Conversely, continuing to leave out tribes 
will likely maintain the status quo, including Native American 
students' persistent high dropout rates and low academic performance.
    Additionally, S. 1262 has new funding authorizations for Native 
American students. The new money will increase local control of 
education by bringing tribal governments, tribal communities, and 
Indian parents into the schools. It will increase communication and 
collaboration among tribes, LEAs, and SEAs. It will empower TEAs to 
take the lead in developing culturally relevant curriculum, teacher 
training, and tribal education goals and policies. The result will be 
education systems with rigorous academic standards and tribal language 
and culture supported and directed by the community. To date none of 
this has been adequately or coherently addressed in federal law or 
authorized appropriations.
    Does S. 1262 increase ``bureaucracy''? Not really; in fact, proper 
recognition of the role of tribal governments and TEAs in education 
could result in decreased bureaucracy. Indian education is already 
fragmented among states, LEAs, federal, and tribal entities 
administering different systems and a host of federal programs. As 
Congress has recognized since the 1988 and 1994 TEA appropriation 
authorizations, TEAs are uniquely best situated to coordinate all of 
these various systems and programs and track Native American students 
through the myriad of services and providers. Ideally, in the long-term 
TEAs will serve as the primary education agency for many Native 
American students. This will reduce state and federal bureaucracy and 
maximize the amount of money and services to Native American students.
    A final comment regarding S. 1262's important and innovative TEA 
pilot project. The project allows up to five tribes to apply to the 
Department of Education to perform SEA functions and receive funding to 
support the activities in a public school located on the tribe's land 
that has a majority of Native American students. Tribes are very 
excited about this project because it represents a monumental step for 
tribal sovereignty. It enables them to direct and control education on 
their reservation by performing high-level SEA functions including 
training teachers, setting accreditation and assessment standards, 
assisting low performing schools, tracking student data, and setting 
policies. These are core components of education, of which tribal 
assumption has never before been supported expressly by federal law.
    In conclusion, NARF and TEDNA support S. 1262. We have come this 
far in partnership with the Committee and we look forward to continuing 
to work closely with our partners to refine the bill. For example, we 
recommend ensuring that both TEA authorizations appropriations amounts 
are at the level of $25 million and clarifying that all tribes have 
equal access to much needed tribal member student data. We are happy to 
help address any concerns or questions regarding S. 1262, and to 
ultimately see it through the legislative process and become law. Thank 
you for the opportunity to address the Committee today.

    The Chairman. Thank you very much, Ms. Bowers, for your 
testimony.
    Again, I want to defer to Senator Tester for his questions 
at this time.
    Senator Tester. Again, I thank you, Mr. Chairman.
    Welcome to all three of the witnesses. I notice each one of 
you addressed us in your Native tongue. All three languages 
were unique because I think Tribes are unique.
    This question is for Scott Russell and if either of the 
others would like to jump in, you sure may.
    Since every language is a bit different and the fact that I 
think we all realize the importance of language and the 
revitalization of languages, is there a standard curriculum out 
there that the public schools or the BIE schools could use to 
implement language classes?
    Mr. Russell. Thank you for the question, Senator.
    The answer is yes and no. There are laws in place in 
Montana. Indian education for all was established in Montana in 
1972. There was a law but there was no enforcement or funding 
for over 33 years until you became part of the picture when you 
were in the Senate in the State of Montana. Only then was this 
law funded, but to this date, we still do not see more 
enforcement.
    A lot of these things turned into law and lacking support 
for 33 years, this generation is feeling the effect of that. I 
use myself as an example. My first language was Crow. In Head 
Start, 100 percent of the students spoke the Crow language. We 
just did a recent study and there are only three students that 
spoke the Crow language coming into Head Start now.
    If you look at the harsh reality of that situation and now 
you think about what is working. We have a Senator sitting here 
that the State has led in immersion school, Senator Akaka from 
the State of Hawaii has an immersion school. There is no one 
way to fix this, but I don't see it as a problem. I see it as a 
great opportunity for all of us to come together. One solution 
is not going to work for everyone, but we have to keep trying 
and we have to have long term, sustainable funding for all 
these projects.
    Senator Tester. Thank you. Go ahead if you want to address 
that.
    Mr. Cromwell. When we look at the Mashpee Tribe's first 
encounter with the European settlers, 400 plus years, and 
almost decimation of my people's culture and language. We still 
are on our original land standing strong.
    Within our service delivery areas, there are no programs in 
the public schools that teach immersion camps. You might have 
heard of the Genius Award. Our Tribe was awarded that Genius 
Award for $500,000 through Jessie Little Doe Baird who is a 
tribal member. She is a MIT graduate.
    We have immersion camps in three of our service delivery 
areas that we fund. Our language is stronger than ever. People 
are speaking it, talking it. It is a very ancient language. The 
first Bible was written in our language at Harvard through John 
Printer who is a Wampanoag.
    Our language is revived. We have done it ourselves. It 
would be great to have funding through this new Senate bill, S. 
1262, to ensure that within our service delivery areas where we 
have these huge populations of Mashpee Wampanoags to be able to 
provide that support. Currently, today, we fund it. It is 
stronger than ever. We have camps and programs and we do it 
ourselves.
    Senator Tester. Teacher recruitment, training, retention 
was talked about in the previous panel. I know it is important 
to you. How do we do it? How do we improve recruitment, 
retention and training?
    Ms. Bowers. Thank you for the question.
    I think the best model out there right now is the ``Grow 
Your Own'' model. The thing that is important to understand is 
several Native communities are incredibly rural and they come 
with their own unique set of issues and opportunities but a lot 
of those communities aren't going to have a Starbucks, they are 
not going to have a Macy's, so some teachers don't want to be 
in that kind of rural community and they don't understand the 
way the community functions and works. Each tribal community, 
in addition to that, has its own way of creating consensus and 
government that is based in the tribal process.
    In the ``Grow Your Own'' model, that supports tribal 
communities developing their own teachers, growing their own 
teachers. That teacher may have to leave the reservation in 
order to obtain the education knowing there is a place for them 
when they come back and having those people come from that 
community will make them want to come back.
    Another point I wanted to add is several state laws are 
authorizing tribal and state partnerships to develop teacher 
credentials and that kind of thing in Native languages. I think 
that is a really good model to support because that allows 
people who have the expertise in the tribal community to be 
recognized by making sure the credential process acknowledges 
those unique cultural skills that particular person has.
    Senator Tester. I want to thank you all. The time has run 
out but I want to thank you all for being here as with the 
previous panel and the next panel. I think if we are going to 
get our arms around this, we all need to work together.
    Thank you all for being here.
    The Chairman. Thank you, very much, Senator Tester, for 
your questions.
    Chairman Cromwell, you mentioned in your testimony some 
eligible local education agencies do not apply for Title VII 
grant funds to support Native education. Why do you think they 
aren't applying for these funds? How can we encourage them to 
do so?
    Mr. Cromwell. That is a great question, Mr. Chairman.
    I went to one of our service delivery areas. I was doing 
educational advocacy for about 10 years and recently one of my 
nephews was having a problem, so we did an education evaluation 
on the executive skills, the kinesthetic skills, auditory 
skills, all the different components of assessing what a 
child's learning problems are. As you know, with Native 
children, it is kinesthetic object oriented.
    I had to push that school for an IEP to specifically focus 
on these skills. I have been at this for 10 years, it is not my 
claim to fame. I am a technologist and a finance person, but I 
really got deep into education.
    Then I looked at the school system and said you have a 
fiduciary responsibility for our Native children to provide the 
best in educational services. I said, it is Title VII, Indian 
education. Over the Mashpee school system, it is $40K which is 
egregious in a sense where the ability to provide those 
specific services needed to move our children through the 
system.
    They looked at me and said, what are you talking about? 
Right then I understood immediately that they are completely 
unaware of that being the school systems around these Title VII 
monies that should follow our children in the school system and 
provide the services that are rightfully needed.
    They began to ask me a lot of questions about what does it 
mean, how do we get it. I was supposed to meet with the 
superintendent and they keep canceling and changing the 
meeting, but it is foreign to them, especially in the 
northeast. It is very foreign to them, they don't understand, 
they don't get it, so it is like you almost have to run a 
campaign around these needs that are important to Indian 
children, the fact that they should be hiring Native teachers 
and building that experience for our children.
    So that is one of my points I am really pushing and 
stressing in Massachusetts, making my way around the school 
systems. They are excited to talk about it but they just don't 
know and understand and it hasn't been promoted to them. I 
think as a federally-recognized Tribe within the State, there 
is a trust responsibility not only on the Tribe but also on the 
Federal Government to communicate with the school systems and 
say, here is funding, it is available.
    In many cases, the funding is not available by the time 
these schools try to go after it because that pot is empty. We 
have challenges. I think it is a marketing and communications 
opportunity for the Federal Government to speak to these 
schools where federally-recognized Tribes are located that 
depend on the public school systems. We submit our statistics 
and work with them. The Department of Education should be 
involved in this.
    For us in Massachusetts, while we have been there forever, 
fought in the Revolutionary War and helped build the State, the 
first Indian governing town in America, they just still don't 
get it. They don't understand.
    The Chairman. Thank you for that.
    Mr. Russell, the majority of students on the Crow 
Reservation attend public schools located at the reservation. 
Can you tell us about the relationship between the Tribe and 
the State and whether the Tribe has significant input into the 
education of its students?
    Mr. Russell. As Senator Tester and my colleague alluded to, 
we have a Native American, a Blackfeet tribal member who is the 
Superintendent of Public Instruction for the State of Montana, 
Denise Juneau who has been very helpful because she has 
actually been through all this and actually known a lot of the 
hardships that we face as Native communities in Montana.
    One of the border towns on my reservation has 75 percent 
Crow Indian. Just recently, my nephew was able to speak before 
his graduating class and he spoke in the Crow language, and 
offered praise and thanks to all those who were there. During a 
school board meeting, one of the school board members, who is 
non-Indian, saw this as rude. Things like that, you think about 
some of those things that maybe they are resisting us, maybe 
they are part of the problem. I don't know.
    When you think about the relationships we have, we 
contribute to the society. We think about how we can help our 
children gain prominence in contemporary society. We still 
think about who we are. I am proud of who I am and we 
perpetuate our way of life, our language, our culture in a way 
that promotes pride.
    For our children, that is how all our work is going to be 
evident. Quite frankly, Mr. Chairman, it scares me right now 
when most of our children do not speak our language.
    The Chairman. Thank you for your responses.
    Ms. Bowers, in your testimony, you focused on being able to 
make sure Tribes have access to help their students who are in 
public schools either on or off the reservations. What tools 
for Tribes are most important in dealing with their local and 
state agencies?
    Ms. Bowers. Thank you for that question.
    It is appropriate for federal law to create a venue for 
Tribes and States to communicate about how to improve Indian 
education performance, so for example, the cooperative 
agreements authorizations in the Native CLASS Act, just having 
a federal authorization or a cooperative agreement between a 
Tribe and a State, that cooperative agreement can regard 
anything, which is the beauty of that particular provision in 
that bill because no matter what the community needs to do to 
help their Native kids, that cooperative agreement will help 
facilitate the Tribe getting involved in that process.
    It is like Chairman Cromwell mentioned. The school that is 
serving the Mashpee kids don't even know about Title VII. What 
they could do is use that cooperative agreement process to 
inform the local education agency about Title VII, inform the 
LEA about other tribal education programs they can offer and 
they can enter into that agreement that can outline how the 
federal services, the tribal services, as well as the state 
services, can be co-mingled together to better improve the 
programs that serve our kids.
    A lot of times what we hear from both the Tribes and the 
States is that they want to get together but just don't have a 
vehicle to do it. Beyond, the vehicle, the other thing is 
funding. You can have the best idea and I think a lot of our 
tribal leaders have these awesome ideas for education but they 
don't have any funding to actually implement those ideas.
    Even if, for example, you had a state partner who was ready 
to implement a particular tribal program in a public school, if 
there is no funding, the idea goes no where. That is also why 
we like this bill because it authorizes new funding for 
language and culture, teacher training, so on and so forth. 
That will help the Tribes and States create these partnerships 
and empower them to develop new programs that will better meet 
the needs of our children.
    The Chairman. Thank you so much for that response.
    What we see happening and what we hope will continue to 
happen is that you find new and better ways to try to assist 
the way you want to structure your education. Again, we want it 
to be as local as possible so they are more aware of their 
culture and the traditions. That part of education, I think, is 
so important.
    I have other questions here for you that I will submit to 
the record and you can respond to them. I want to thank you so 
much for coming because your responses have been valuable to 
us. Hopefully what we are trying to do will be a fruit and will 
blossom into beautiful flowers, trees and fruits for our young 
people.
    As was mentioned, we do this for our young people. I would 
like to see in the future that our young people can still speak 
the language and know with pride what their culture is. That is 
our goal. That is all of our goals, so let us continue to work 
together on this.
    Thank you very much.
    I would like to call on Panel Three to come forward. I 
would like to invite you to the witness table. Serving on our 
third panel is Ms. Dana Brave Eagle from the Oglala Sioux 
Tribal Education Department located in Kyle, South Dakota, and 
Ms. Jessica Imotichey, Senior Policy Analyst with the Chickasaw 
Nation from Washington, D.C. Welcome to you.
    Ms. Brave Eagle, will you please proceed with your 
testimony?

 STATEMENT OF DANA BRAVE EAGLE, DIRECTOR, OGLALA SIOUX TRIBAL 
               EDUCATION DEPARTMENT, PINE RIDGE 
                       INDIAN RESERVATION

    Ms. Brave Eagle. [greeting in native language]. My name is 
Dana Brave Eagle and I am the Oglala Sioux Tribal Education 
Director representing the Pine Ridge Indian Reservation today.
    I want to thank Senator Johnson's office for the invitation 
to be here to share testimony with the committee on Indian 
education.
    I represent a reservation with over 5,000 school age 
children from K-12. We also have a local tribal college, Oglala 
Lakota College servicing our reservation with 13 centers on our 
reservation.
    On our reservation, we also have four State elementary 
schools within our boundaries. We are a large reservation, 
land-based. Of the 13 schools, we have 6 tribal schools, 1 BIA 
school, 2 parochial schools and 4 State Shannon County schools.
    This provides a challenge for us because we are not able to 
provide clear data on all our children because of the different 
entities. We want to come to the table and work together with 
the State, with the Bureau as tribal schools working together, 
providing a true picture of our students on our reservation.
    I think one of our struggles has been data driven. We don't 
have the data to represent our children. We don't have 
research-based curricula--no one does--of our children, the 
Oglalas. There hasn't been research to prove which curriculum 
is best suited for our children. We have people who make those 
decisions that are not on our reservation or who have worked 
with our children. We need to be at the table now. It is time 
for the Tribes to be at the table to help make these decisions 
because at the end of the day, these are our children, this is 
our future and we do now have the resources. We have the 
individuals who are educated and able to make these decisions.
    When we talk about the Lakota language, our language and 
culture, we need to work on preserving it. This bill moves this 
forward. I truly believe and I am very passionate about 
education. I have spent 23 years in Indian country in Indian 
education. How do our children know where they are going if 
they don't know where they have been? If we don't build our 
culture and our language, then where will we be? It is very 
important that we maintain our culture and our language but 
with self-determination. It is very important that we involve 
the Tribes and that Tribes are involved in making decisions on 
their education.
    I want to say thank you again and applaud this committee 
for addressing Native issues and the future of Native children. 
I want to continue work together and believe this Act will not 
only benefit Native American students, but will also have a 
positive influence on their environment. I want you to know 
that I will continue to work with this Committee, with other 
partners and our State to continue these efforts.
    Again, [greeting in native language] to you, Chairman Akaka 
and to Senator Johnson for the invitation allowing me to be 
here.
    [The prepared statement of Ms. Brave Eagle follows:]

 Prepared Statement of Dana Brave Eagle, Director, Oglala Sioux Tribal 
          Education Department, Pine Ridge Indian Reservation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much for your testimony.
    Ms. Imotichey, your testimony, please.

    STATEMENT OF JESSICA IMOTICHEY, SENIOR POLICY ANALYST, 
                        CHICKASAW NATION

    Ms. Imotichey. [greeting in native language]. My name is 
Jessica Imotichey, I am Chickasaw, and I am the Senior Policy 
Analyst for the Chickasaw Nation. Thank you for the opportunity 
to comment today.
    I will be providing testimony on behalf of the Lisa John, 
our Education Administrator, who regretfully was unable to 
attend.
    The Chickasaw Nation is located in south central Oklahoma 
and encompasses all or part of 13 counties. The majority of our 
students attend public schools. Currently, there are an 
estimated 60,000 students enrolled in public schools within our 
tribal jurisdiction and approximately 15,000 of those are 
Native American. The goal of the Chickasaw Nation is to develop 
programs and services that enhance the overall quality of life 
for Chickasaw people and this very much includes education.
    We realize that education provides the stepping stones to 
success for our people and for that reason, we embrace the idea 
of becoming a partner with our local schools. The Tribe 
operates the Johnson-O'Malley Program for 52 schools within our 
tribal boundaries. This program provides for approximately 
8,000 Native students, assisting in things like school 
supplies, education materials, tutoring and cultural education. 
In 1994, the Johnson-O'Malley student count was frozen and 
funding has not increased since 1995, resulting in fewer 
services for our students.
    There has been continued movement by the Bureau of Indian 
Education to eliminate the JOM Program. The BIE's core 
priorities are students located within BIE-funded schools. 
However, Native students in public schools do not have a voice. 
The best advocates for these students are the Tribes 
themselves.
    Tribal interaction with schools could be improved by 
allowing the tribal education agencies direct access to our 
students and their educational data. Connecting students and 
families to tribal programs gives much needed access to family 
counseling, behavioral health, mentoring and cultural and 
language programs. These programs are particularly vital for 
our at risk students.
    Schools could also be held more accountable for the 
education of our students if funding for Indian education 
programs was administered by these tribal education agencies. 
Funds for these programs are often spent on educational 
services for the entire school population and not the Native 
students for which the funds are allocated. With TEA oversight, 
we could ensure proper expenditures.
    Finally, culture, history and language make us who we are; 
it permeates everything that we do. Native students look at 
their history and culture to validate who they are as people. 
Tribes can be a resource for developing culturally appropriate 
curricula and it can be designed so that it will abide by the 
States' common core standards.
    The No Child Left Behind Act requires a teacher to be 
considered highly qualified in order to teach a language for 
school credit. Most of our fluent speakers are elders and do 
not have a degree or certification to become highly qualified. 
Tribes are the best judges to say who is an expert speaker of 
their language. Therefore, it is critical to allow Tribes to 
certify our own language speakers according to our own 
standards.
    We applaud the efforts of this committee to address issues 
related to Native education. As I complete my testimony today, 
I would like to pay respect in honoring my Auntie Yvonne 
Imotichey Albertson who received a Masters Degree in Education 
from Southeastern Oklahoma State University.
    At the time of her passing in 2004, she was the only 
Chickasaw language certified teacher in the State of Oklahoma. 
She began teaching Chickasaw at the elementary school in 
Tishomingo in 1966. As I testify today, I would like to thank 
my Auntie and others who have paved the road for what this bill 
means in recognizing the importance of tribal language and 
culture in our children's education.
    Thank you.
    [The prepared statement of Ms. Imotichey follows:]

    Prepared Statement of Jessica Imotichey, Senior Policy Analyst, 
                            Chickasaw Nation
    Good afternoon, I am Jessica Imotichey, Senior Policy Analyst, 
representing the Chickasaw Nation from Oklahoma. Thank you Senator 
Akaka and the Committee for allowing me this opportunity to provide the 
Chickasaw Nation's conceptual comments as it pertains to portions of 
the Native CLASS Act. We are at this time continuing our review of the 
Act and look forward to more dialogue in the future.
    The Chickasaw Nation is a federally recognized tribe located in 
south-central Oklahoma and encompasses all or parts of 13 counties. The 
Chickasaw Nation division of education serves approximately 14,200 
students per year from across the United States. The majority of our 
Chickasaw students in Oklahoma attend public schools. Currently there 
are an estimated 59,474 students enrolled in the public school 
districts within the tribe's jurisdiction; 14,801 are Native American.
    The Chickasaw Nation constitution provides the Governor with broad 
discretion to develop and guide the division of education. The division 
of education is compromised of 210 employees and 5 departments: 
childcare, head start/early childhood; education services; supportive 
programs and vocational rehabilitation. Our goal at the Chickasaw 
Nation is to develop programs and service that enhance the overall 
quality of life of Chickasaw people. Our services and programs are not 
limited to Chickasaw citizens. We have a wide range of services that 
benefit other Native American's and non-Natives as well. Many of our 
programs rely heavily on outside partners in order to address the needs 
of our people and local communities. We realize that education provides 
a stepping stone for people to become productive citizens. For that 
reason, we embrace the idea of becoming better partners with our local 
schools to improve the education for all students.
Johnson O'Malley
    The Chickasaw Nation acts as a contractor for the Johnson O'Malley 
(JOM) program for 52 public schools within the Chickasaw Nation 
boundaries. This funding provides supplemental educational 
opportunities for approximately 8,200 Native American students in our 
area assisting with school supplies, educational materials, tutoring 
and cultural education. Each school has a JOM coordinator and parent 
committee that oversees the use of the funds.
    In 1994 the Johnson O'Malley student count was frozen and the 
funding has not increased since 1995. Currently over 90 percent of 
Native American students are in public schools yet the funding has 
remained the same, resulting in fewer services for the students. 
Additionally when the student count was frozen, the JOM funds were 
placed under the Tribal Priority Allocation (TPA) category of funding 
and the JOM office at the Bureau of Indian Affairs (BIA) was closed. 
There is no contact person for the JOM program to maintain and 
administer the program. There has also been a move by the Bureau of 
Indian Education (BIE) to eliminate the JOM program so they can use the 
funds for other uses. The BIE's priority is students located within BIE 
funded schools. As I mentioned earlier, most Native American students 
attend public schools. The Native students in public schools do not 
have a voice in the BIE or BIA to advocate for their academic success. 
The best advocate for Native students is the tribes.
Tribal Interaction with Schools
    Tribal interaction with schools could be improved by allowing 
Tribal Education Agencies (TEA) access to students, and educational 
data of students enrolled in public schools within the tribal 
boundaries. These TEAs could assign representatives to the schools to 
have direct contact with the students and could assist them with 
tutoring and help address attendance issues with an emphasis on access 
to tribal programs. Connecting students and families to tribal programs 
gives much needed access to family counseling, behavioral health 
professionals, mentoring programs, cultural and language programs to 
name a few. There are too many issues in public schools to expect the 
teachers or administrative staff to be aware of tribal programs, which 
results in tribal students being disconnected to services that could 
help them perform better academically and socially. Tribal 
representatives should have access to student records (attendance, 
grades, etc.) so that tribes can become partners with the schools to 
improve the tribal student's education, or prevent at-risk students 
from failing or dropping out of school.
    The curricula for public schools are determined by committees 
appointed at the district and state level. Unfortunately, in states 
with populations of Native American students, there are times when 
schools include offensive material into curricula without being aware 
of the nature of the offense. For example, in Oklahoma, public schools 
often conduct activities portraying the ``Oklahoma Land Run'' without 
realizing the negative connotation of the act to Native American 
students. Most teachers and administrators are not aware of the 
negative impact they have on the students and their families. There are 
better ways to study historical periods of statehood or other events, 
and with a tribal representative on the curricula committee, it could 
be accomplished in a manner that is not offensive.
Accountability
    Schools could be held more accountable for the education of Native 
American students if funding for Indian Education programs such Title 
VII and Impact Aid were administered by the Tribal Education Agencies 
in the area. This could be done in a manner similar to the JOM 
contracts. Currently, schools are only required to have public hearings 
or oversight committees appointed by the school administration. Tribes 
are often not given adequate notification for the hearings and may not 
be asked to participate at all. As a result the funds are often spent 
for educational services for the entire school population, not the 
Native American students for which the funds are allocated. If the TEA 
had oversight, it could ensure proper expenditures. For years tribes 
have been asking local schools how the Title VII and Impact Aid funds 
are spent. Schools are reluctant to share the information with the 
tribes but when they do answer their typical response is ``the funds go 
into one pool and cannot be tracked;'' they cannot tell us specifically 
if the funds were spent on Native students. Realistically we know the 
funds are federal dollars and must be reported to the funding agency so 
there is some type of reporting mechanism involved.
Culture and Native Language
    Over the past decades, tribes have made great advances in capturing 
and preserving their culture, history and languages. Culture, history 
and language make us who we are and help us to understand our struggles 
and accomplishments. It is unfortunate that the public school textbooks 
have not preserved this information or portrayed accurate Native 
American history to students. History and culture validates people's 
existence. Native students look to their history and culture to 
validate who they are and why they are here. Working with public 
schools, tribes can provide accurate and relevant history and culture 
so all students can benefit from the information and presentation. 
Tribes can be a resource for language, cultural or history curricula, 
and it can be designed so that it will abide by State's Common CORE 
Standards.
    The No Child Left Behind Act requires a teacher be considered 
``highly qualified'' in order to teach a language for school credit. 
Most fluent tribal speakers are elders and do not have the degree or 
certification to become ``highly qualified.'' Those same speakers are 
being lost at an alarming rate due to their age. Native languages are 
highly endangered and action needs to be taken before they are lost. 
The tribes are the best judge to say who is an expert speaker of their 
language. NCLB should include language which allows tribes to certify 
their language speakers according to standards the tribe determines. 
Additionally, Native language should be certified as a world language 
credit so that it is accredited for purposes of graduation. Currently, 
Native language is counted as electives due to the challenges of 
teacher certification.
    In conclusion, we applaud the efforts of this Committee to address 
issues related to Native students and education. Working together, we 
believe the impact of this Act will not only benefit Native American 
students but will also positively impact their families, communities, 
and all students in public schools!

    The Chairman. Thank you very much for your testimony.
    Ms. Brave Eagle, I want to thank you so much for taking the 
time to come and appear at our hearing. I understand you left 
your family on vacation to come and testify on this bill.
    Ms. Brave Eagle. Yes, I did.
    The Chairman. As you mentioned, and it shows, that you are 
very passionate about this area we are discussing. Let me ask 
you, the Oglala Sioux Tribe has a variety of schools on its 
reservation, public, BIE operated schools, private and 
tribally-controlled BIE schools as well. My question is, how do 
you coordinate language and cultural education among these 
different schools on the reservations?
    Ms. Brave Eagle. Our tribal schools all have implemented a 
curriculum of Lakota language. Our high schools require our 
students who are graduating to have Lakota language as a credit 
and requirement to graduate high school. Our BIE school also 
implements Lakota language. Our parochial schools have some of 
the history and culture and also the language but we don't have 
one uniform curriculum that is served in all four different 
types of schools.
    In our state schools, Shannon County schools, they do 
implement Lakota language. It is not as prevalent in some of 
the schools as it is in the tribal schools because as the 
tribal education director, we have influence directly to our 
tribal schools. With the other schools, we have to partner with 
the other entities of the state education agency or the Bureau 
of Indian Affairs and with the parochial schools. That is a big 
challenge for us on our reservation.
    The Chairman. Ms. Imotichey, the Native CLASS Act seeks to 
improve coordination for federal Native education programs 
including Johnson-O'Malley and Title VII. What are the 
coordination challenges with federally-funded Native education 
programs and how can we improve that coordination?
    Ms. Imotichey. That is one of the things we are very 
excited about with this bill, improving coordination. One of 
the biggest challenges is what I and some of the others have 
said in our testimony and that is access to data and being able 
to really see what is going on with our children and what their 
needs are to better be able to serve them. I think by allowing 
us access to that data, we will be able to improve the 
coordination.
    The Chairman. Ms. Brave Eagle, one issue many Tribes deal 
with is the high drop out rate for Native students. A success 
or failure in school depends on community and parental 
involvement at home and in the schools. We, in Congress, 
struggle with how to legislate on these issues. Is this an 
issue in the schools on the Oglala Sioux Reservation and how do 
you think the Tribe and Congress can address these issues?
    Ms. Brave Eagle. Yes, this is a major problem for us, our 
high drop out rate. It correlates with our unemployment rate 
also, so there is a correlation there that needs to be 
addressed. We need to openly see the correlation between high 
dropout and unemployment. There is a connection there. We need 
to work together in all entities to make sure that we can help 
support our students in the success of graduation.
    The social issues our reservation faces are no different 
than other social issues inner cities may face or any other 
reservation but because we are on a reservation, its magnitude 
is more. We need to continue to support the success of our 
students and encourage them to continue to value education and 
complete their high school graduation.
    The Chairman. Ms. Imotichey, the drop out rate for Native 
students is the highest in the Nation, especially in States 
like yours with high Native populations. In your work, what are 
the most promising strategies for preventing dropouts?
    Ms. Imotichey. I am the senior policy analyst so I can get 
back with our education administrator to find out what are some 
of the more technical things our Tribe is doing in terms of 
programs to be able to decrease dropout rates, but I know that 
we have several programs we really try and encourage.
    We have a robotics program, we have some language programs. 
We recently opened the Chickasaw Cultural Center and we are 
increasing our programs through that. We are giving our 
students positive things to want to keep them involved in 
school and in culture. Hopefully, that will reduce some of the 
dropout rate.
    The Chairman. I really appreciate you coming because we are 
hearing directly from you, from the Tribes themselves and those 
of you who work in the system. In a sense, we are desperately 
trying to find ways of trying to improve the system.
    Legislatively, for me, would be the last resort. If we can 
do it administratively, that would be even better as we work 
out these things. There are so many things about education that 
continuously challenge our people. As you know, one of the 
things I think we have not done too well is to use our 
language, tradition and culture as a way of trying to educate 
our young people.
    Also, education is a process that requires as much 
partnership as possible. By that, I mean involving the parents 
as well as the school, the teachers, as well as the community, 
so it can get larger. There are so many areas you can begin to 
work on in setting up a curriculum that can help the young 
people.
    One other important thing, I feel, is for them to be able 
to really do all of this with pride, pride for their language, 
culture and traditions.
    We have lots of work to do and as I keep saying, we need to 
work together to bring about all of this. Of course our hope is 
that the bill we are talking about, the Native CLASS bill, does 
help us in this. We are also looking to you to tell us whether 
it really does or doesn't and to suggest any changes that can 
help.
    It is important and exciting and we look forward to 
continuing to work with you. I have some other questions for 
you but I am going to submit them and have you respond to them 
in that way.
    Before I let you go, I just want to give you an opportunity 
to make any statements, suggestions or recommendations as to 
what else we can do. My questions have been probing you to give 
us those kinds of answers. Again, I will give you a chance to 
make any remarks you would like at this point.
    Ms. Brave Eagle. Again, I just want to thank you for 
inviting us and for bringing us to the table to give our 
comments. I want to also say we want to continue to work 
together as you stated, that we need to come together and work 
together to provide the best we can for our children because 
that is our future.
    The Chairman. Thank you very much.
    Ms. Imotichey. I would also like to thank you for the work 
that has been done on this bill. In looking through it, we are 
very excited about some of the provisions, specifically the 
language and culture provisions and the provisions modeled 
after self governance. I think self governance has really 
proven to work in other ways and we think it can also work in 
education, so we are very excited about that.
    Thank you.
    The Chairman. Well, again, thank you, and to all of our 
witnesses today. This has been a very informative discussion.
    As I said earlier, the introduction of this important 
legislation and our hearing today are only the beginning of our 
dialogue about improving Native education. We encourage you to 
continue sending us your recommendations so that we may further 
improve the bill.
    Strong roots and a successful future for Native communities 
depend on the success of our young people and our schools. 
Again, thank you to all of you who participated today and I 
want to remind you that the committee record will remain open 
for two weeks from today for any additions for the record and 
also for members to submit any questions they may have.
    With that, thank you very much and a safe trip home. Aloha 
and we look forward to working with you.
    This Committee is adjourned.
    [Whereupon, at 4:18 p.m., the Committee was adjourned.]
                            A P P E N D I X

Prepared Statement of Colin Kippen, Executive Director, National Indian 
                         Education Association
About NIEA
    The National Indian Education Association is the oldest and largest 
association representing American Indians, Alaska Natives, and Native 
Hawaiians. The mission of the National Indian Education Association is 
to support traditional Native cultures and values, to enable Native 
learners to become contributing members of their communities, to 
promote Native control of educational institutions, and to improve 
educational opportunities and resources for American Indians, Alaska 
Natives, and Native Hawaiians throughout the United States.
    NIEA would like to express its appreciation to Chairman Akaka, Vice 
Chairman Barrasso, and members of the Senate Committee on Indian 
Affairs for holding a hearing on the Native CLASS Act. We are also 
thankful to Senator Akaka for incorporating many of the NIEA's 
suggestions into this bill. It is our hope that this will address many 
of the needs for Native education stakeholders across the country. A 
rigorous curriculum and relevant instruction are keys to engaging 
students in research-driven education models that are rooted in the 
culture, language, histories, and traditions of Native students. This 
benefits not only the individual, but it creates social and economic 
capital for families, tribes, and communities. We believe that S. 1262 
is a step in the right direction to improve the status of Native 
education.
Areas of S. 1262 Requiring Additional Amendments
<bullet> Restore Assistant Secretary for Indian Education. The current 
        position for the Director is underutilized and functions almost 
        exclusively as a grant manager. This AS for Indian Education 
        position must be restored so there is authority to engage in 
        and advise the Secretary of Education on all titles of the 
        Elementary and Secondary Education Act (ESEA) that impact 
        Indian student education from cradle to career. The Assistant 
        Secretary for Indian Education should also facilitate 
        interagency collaboration, implement the role of the tribal 
        education agencies in various titles, and serve the needs of 
        higher education and the tribal colleges. The AS for Indian 
        Education would preferably be one person with the skill and 
        expertise to collaborate and advise the Secretary across the 
        department and to assist in assuring that collaboration and 
        communication increase to benefit Indian students and the 
        programs affecting Indians located within the Department of 
        Education.

<bullet> The Family Education Rights and Privacy Act (FERPA) needs to 
        be clarified to make tribes eligible to access student data. 
        This should be accomplished through an amendment that includes 
        tribes (and/or their Tribal Education Departments/Tribal 
        Education Agencies) as being among the education agencies, 
        authorities, and officials to whom protected student records 
        and information can be released without the advance consent of 
        parents or students. Such an amendment to FERPA would be 
        consistent with the tribal education programs authorized by 
        Congress since the ESEA Reauthorizations.
Conclusion
    NIEA believes that in tough financial times, the investment that 
yields the greatest return comes from educating our youth. A holistic 
education that fosters resiliency and a sense of identity are important 
components of Native education. So, too, is a rigorous and relevant 
curriculum, effective instructors and leaders, and the ability for 
parents and communities to shape the direction of education their 
children. NIEA looks forward to continuing to work with the Senate 
Committee on Indians Affairs to improve the education status of our 
Native students. NIEA also will continue to poll our members and to 
garner comments and suggestions from Native teachers, Native 
administrators, and Native individuals, Native families, and Native 
communities across the United States on this seminal legislation known 
as the Native CLASS Act.
                                 ______
                                 
   Prepared Statement of Charles R. Calica, Secretary-Treasurer/CEO, 
     Confederated Tribes of the Warm Springs Reservation of Oregon
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of Hon. Delores Pigsley, Tribal Chairman, Conferated 
                        Tribes of Siletz Indians
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
                               Amy Bowers
    Question 1. What kind of access and local control would help Native 
communities track and coordinate data about their students, especially 
as they change schools?
    Answer. Increased and unimpeded access by Tribal Education 
Departments/Agencies (TEAs) to Native American (NA) student data would 
help Native communities track and coordinate their K-12 students. 
Express recognition in federal law that TEAs can receive NA student 
data, and sufficient federal funding to support the development and 
maintenance by TEAs of NA student data systems, would help establish 
the needed tribal access to and local control of NA student data.
    There are approximately 700,000 K-12 NA students that attend 
federal, state, and tribal schools throughout urban, suburban, and 
rural areas nationwide. For a number of reasons, accurate, 
comprehensive, and meaningful data for these students is lacking. 
Federal education reporting requirements often omit NA students due to 
their small numbers. State and local education agencies that do track 
NA students in public schools are nevertheless unable to track the 
almost 10 percent of NA students who attend federal and tribal schools. 
During their K-12 years, many NA students transfer among federal, 
state, and tribal school systems but the systems are not required to 
transfer student data. Likewise, multiple federal education programs 
serving NA students, like ESEA Titles I, III, and VII, Impact Aid, and 
JOM are not required to report to each other.
    Given these factors, Tribes uniquely are in the best position to 
track and coordinate NA student data regardless of the education 
provider and student location. However, an outdated oversight precludes 
tribes from doing so. The Family Educational Rights and Privacy Act 
(FERPA) of 1974, Title V, Sec. 513 of Pub. L. No. 93-380 (1974), 
currently codified at 20 U.S.C. Sec. 1232g, generally allows federal, 
state, and local education agencies, authorities, and officials access 
to student records and other personally identifiable information kept 
by educational institutions without the advance consent of parents or 
students. 20 U.S.C. Sec. 1232g(b). These records typically include 
attendance records, grades, and test scores. FERPA simply does not 
include tribes or TEAs as entities eligible to obtain such data without 
advance parental consent. In all but a very few instances, this has 
thwarted tribal access to NA student data. FERPA should be amended 
expressly on this point as follows by adding to Section 
1232(g)(b)(1)(C) a new subsection (iii) that reads,

        ``(1)(C)(i)(iii) authorized representatives of Indian tribes.''

    Once TEAs have regular access to data on NA students in public 
schools, which are where the majority of NA students attend, TEAs can 
extend their data collection to other schools and programs. With a 
comprehensive database TEAs can synthesize and analyze data, which can 
then be shared with other educational providers and entities.
    In addition, the Educational Technical Assistance Act of 2002, Pub. 
L. 107-279, Title II, Sec. 208, currently codified at 20 U.S.C. Sec. 
9607, should be amended to make tribes expressly eligible for federal 
funding to develop longitudinal student data systems. Currently such 
funding ($150 million in FY 2009; $100 million projected for FY 2012) 
is available only to states. Without such federal funding, tribes, like 
states, are unable to develop such systems on their own. With such 
federal funding, tribes can develop student data systems that are 
compatible with and linked to those of states.

    Question 2. In your experience in looking at programs where tribes 
and states have worked together to better educate Native students, what 
were the keys to their success?
    Answer. Many of the best examples of tribes and states working 
together to better educate Native students are reflected in the recent 
K-12 Indian education laws of 18 states with high NA student 
populations (Arizona, California, Hawaii, Idaho, Maine, Michigan, 
Minnesota, Montana, Nebraska, Nevada, New Mexico, North Dakota, 
Oklahoma, Oregon, South Dakota, Washington, Wisconsin, and Wyoming). 
These state laws, which were developed with direct and significant 
input from tribes and Native communities, include various provisions 
for K-12 public school curricula in NA tribal history, culture, 
language, and government. The state law developments are remarkable 
because no federal law requires them. They can be attributed to 
leadership, partnerships, and commitment. They often begin with dialog 
among tribal, state, and local leaders, and parents, teachers, and 
administrators. A vetting of problems leads to an acknowledgment of the 
need for improvement being in the best interests of all involved. 
Collaborative work begins headed by talent and wisdom, supported by 
resources, and united by common goals. Effective solutions and 
strategies eventually emerge. After much give and take, buyin, and 
consensus, a final product is produced, typically a state law, policy, 
or entity (such as a task force or an advisory council) that can be 
institutionalized and implemented. (See the Tribal Education 
Departments National Assembly 2011 Report on Tribal Education 
Departments for specific examples of tribes and public schools working 
together at the local level available at www.tedna.org ).
    In the Native CLASS Act, Congress can foster and support more such 
partnerships to help NA students. Indeed the Native CLASS Act does this 
by its landmark federal law confirmation of a role for tribal 
governments and TEAs in state public school education, authorizing 
tribal-state cooperative agreements, and providing funding for such 
roles and partnerships. In particular, the authorization of tribal-
state cooperative agreements provides a proven framework for tribal-
state resolution of problems generally while allowing specifically for 
local solutions. Federal funding authorized in the Act will further 
these efforts and allow and encourage tribes and states to review, 
revise, and sustain their education improvements at the local level.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                               Amy Bowers
    Question 1. What, in your opinion, should be done in the context of 
Indian education reform to reverse these problems?
    Answer. Increasing NA student high school graduation rates will 
help to reverse these problems. Research and reports have long 
recommended better links between schools and NA communities, and at 
some level this means formal recognition of a role for tribal 
governments in education, including public school education. Federal 
law and policy can help direct these results, according to an excellent 
recent study co-conducted by Dr. John W. Tippeconnic III, Professor of 
Education at Pennsylvania State University (attached hereto). 
Significantly, Dr. Tippeconnic was appointed the Director of the Office 
of Indian Education Programs (now known as the Bureau of Indian 
Education) in the Department of the Interior under President Clinton, 
and the Director of the Office of Indian Education in the Department of 
Education under President George H. W. Bush.
    The Dropout/Graduation Rate Crisis Among American Indian and Alaska 
Native Students: Failure to Respond Places the Future Of Native Peoples 
at Risk (2010), Los Angeles, CA: The Civil Rights Project/Proyecto 
Derechos Civiles at UCLA; www.civilrightsproject.ucla.edu., co-authored 
by Dr. Tippeconnic, confirms that NA students have the lowest high 
school graduation rate of any ethnic group. The lack of education 
progresses into economic hardship, which can develop into social 
problems such as drug abuse and domestic violence. NA males over the 
age of 16 are particularly vulnerable--in fact only 67 percent of them 
are part of the labor force. Id. at 21. On average, a NA man makes 
almost $10,000 less annually than all other men in the United States. 
Id. at 22. The NA population typically works in serviceoriented jobs 
which lack benefits and pay less than enough to support a family. Id. 
Inability to earn wages sufficient to support a family results in NA 
families being twice as likely to live in poverty as non-Natives. Id.
    In this report, the authors attribute high NA secondary student 
dropout rates to both institutional and individual factors. Id. at 27. 
Institutional factors include lack of teacher empathy, passive teaching 
methods, irrelevant curriculum, inappropriate testing, tracking, and 
lack of parental involvement. Id. Individual factors include students 
being ``pushed out of school,'' poor teacher-student relationships, 
student mobility, substance and alcohol abuse, lack of interest in 
school, discipline problems, and boredom, among other issues. Id. at 
28. Factors that can increase graduation rates are culturally relevant 
curriculum, proficiency in students' native language, learning English 
early, parental encouragement, and small class sizes. Id. at 29.
    Currently, too few schools serving NA students have addressed these 
factors sufficiently. Despite some positive changes in some states at 
the state law and policy level, at the local level NA parents, 
communities and tribal governments still play a limited role in many 
schools, even those on Indian reservations. This is largely due to lack 
of resources and expertise, and entrenched attitudes and practices. 
When NAs continue to be excluded from a system, they continue not to 
trust it. Continued negative perceptions perpetuate poor academic 
performance and high dropout rates.
    Congress can help reverse these problems by playing a leadership 
role in linking schools and NA communities, and by recognizing roles 
and opportunities for tribal governments and TEAs in public school 
education. Every ESEA title serves NA students, and every title should 
have an appropriate role for tribal governments, TEAs, NA parents, and 
communities in the administration, implementation, and reporting of 
each program. (See the Tribal Education Departments National Assembly 
ESEA Reauthorization Recommendations, attached hereto, for specific 
proposed amendments). The Native CLASS Act begins this process by 
artfully providing in selected Titles an appropriate role for all 
levels of NA communities to participate in the education of their 
children.

    Question 2. What kind of outreach to state school systems has been 
undertaken to incorporate some of these ideas?
    Answer. For decades, the Federal Government, tribal governments, NA 
parents, teachers, administrators, and states have been discussing the 
role of tribal governments in public school systems operating on Indian 
reservations. In some cases, states have enacted laws specifically 
recognizing a substantive or advisory role for tribes in public school 
education. These state laws reflect the Native and non-Native 
leadership, common goals, and collaboration needed to improve Indian 
education. And they lay the foundation for more tribal governments 
playing an even larger role in state public school education. The 
Native CLASS Act is consistent with and supportive of these state laws 
and other efforts at the state, tribal, and local levels.
    Even in states where such laws have not yet come to fruition, 
tribal leaders, Indian educators, and parents, as well as national 
Indian organizations continue to meet with states and public school 
officials to discuss how to improve Indian education. Frequently, 
progress is hindered by the lack of a defined role for tribal 
governments in education. This makes collaboration difficult because 
parties and stakeholders may not know where or how to start working 
together. Meaningful roles for tribal governments defined in federal 
law, such as those in the Native CLASS Act, will facilitate these 
discussions and result in positive policy reform.
    Generally, national Indian organizations, tribal governments, and 
NA parents continue to work with states and public school systems 
across the country to educate and generate support for the policy 
themes in the Native CLASS Act. National meetings such as the National 
Indian Education Association's Annual Conference, Tribal Education 
Departments National Assembly (TEDNA) Annual Meetings, and local 
meetings between tribes and states frequently discuss these types of 
policy initiatives. Importantly, for some years TEDNA and NARF have 
worked directly with the Council of Chief State School Officers (CCSSO) 
on such matters. Together we developed two publications: Major 
Elementary and Secondary Federal Education Programs Serving Tribal 
Students: What are they and What are the Roles of SEAs, LEAs, and 
Indian Tribes (2005) and A Manual for Chief State School Officers and 
State Education Agencies on Tribal Sovereignty, Federal Education 
Programs for Tribal Students, and Tribal Education Departments (2006). 
We continue to engage the CCSSO with respect to our legislative 
priorities, including the Native CLASS Act. Finally, TEDNA's membership 
works with local school districts as frequently as day-to-day to find 
innovative ways to incorporate tribal education resources into state 
public schools to help meet the needs of NA students. (See TEDNA's 2011 
Report on Tribal Education Departments available at www.tedna.org for 
specific examples of the use of tribal education resources in public 
schools). To be sure, the policy themes in the Native CLASS Act are not 
new and have been vetted with states across the country.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Akaka to 
                            William Mendoza
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to Written Questions Submitted by Hon. John Barrasso to 
                            William Mendoza
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            William Mendoza
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Response to Written Questions Submitted by Hon. Kent Conrad to 
                            William Mendoza
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
